<html>
<title> - [H.A.S.C. No. 113-40]BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-40]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON
 
         BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES

                               __________


                              HEARING HELD

                             APRIL 25, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 




                  U.S. GOVERNMENT PRINTING OFFICE
80-769                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                      Eric Smith, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, April 25, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request for National Security Space 
  Activities.....................................................     1

Appendix:

Thursday, April 25, 2013.........................................    27
                              ----------                              

                        THURSDAY, APRIL 25, 2013
  FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                   NATIONAL SECURITY SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Klinger, Gil, Deputy Assistant Secretary of Defense, Space and 
  Intelligence Office (AT&L), U.S. Department of Defense.........     4
Loverro, Doug, Deputy Assistant Secretary of Defense, Space 
  Policy, U.S. Department of Defense.............................     6
Sapp, Betty, Director, National Reconnaissance Office............     3
Shelton, Gen William, USAF, Commander, Air Force Space Command, 
  U.S. Air Force.................................................     2

                                APPENDIX

Prepared Statements:

    Klinger, Gil.................................................    63
    Loverro, Doug................................................    72
    Rogers, Hon. Mike............................................    31
    Sapp, Betty..................................................    53
    Shelton, Gen William.........................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................    85

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................   105
    Mr. Garamendi................................................   104
    Mr. Langevin.................................................   103
    Mr. Rogers...................................................    89


  FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 

                   NATIONAL SECURITY SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, April 25, 2013.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. This hearing of the Strategic 
Forces Subcommittee of the House Armed Services Committee is 
called to order. I want to welcome everyone to the Strategic 
Forces hearing on the fiscal 2014 budget request for the 
national security space
activities.
    Our distinguished panel of experts this afternoon are 
General William Shelton, Commander of Air Force Space Command; 
Ms. Betty Sapp, Director of NRO, National Reconnaissance 
Office; Mr. Gil Klinger, Deputy Assistant Secretary for 
Defense, Space and Intelligence Office; and Mr. Doug Loverro, 
Deputy Assistant Secretary of Defense for Space Policy.
    I appreciate your time in being here and the time it took 
to prepare for this hearing. It is important and very helpful 
to us for you to be able to participate.
    Space is a critical element of our national security in 
both peace and wartime environments. I am very concerned of the 
impact of sequestration on national security space programs, 
and I appreciate hearing more from you during our opening 
statements on this issue.
    Potential adversaries have taken note of our reliance on 
space and are developing the means to degrade, deny, and 
destroy our capabilities. Just like the evolution of ground, 
sea and air platforms, when defenses and survivability 
mechanisms had to be developed to keep pace with the threat, 
now this is happening with space
systems.
    I am pleased to see the Department's recognition of the 
threat, as evidenced by the increased investment in space 
situational awareness in the fiscal 2014 budget request. I 
remain concerned on the future implementation of space defense 
and resilience to include breaking up or disaggregating 
programs that we have invested billions to develop and are just 
starting to provide the necessary capabilities for the 
warfighter. I look forward to further dialogue and study of 
this important topic.
    Separately, I commend the Department on the significant 
advances it has made on many space programs. After years of 
massive costs and schedule overruns, we have entered a new 
period of stable procurement, incremental development. As noted 
above, I am skeptical when I hear that we now may want to break 
up these successful programs.
    For instance, the Air Force recently reported that new 
block-buy strategies for Space-Based Infrared System, Advanced 
Extremely High Frequency Satellite, and the Evolved Expendable 
Launch Vehicle programs are resulting in over $2.5 billion in 
savings over the next 5 years. This is a tremendous success for 
the military and the taxpayer, and I hope to see those savings 
reinvested and provide the necessary modernization initiatives 
in accordance with the warfighter requirements.
    Thank you again for being with us today, and I look forward 
to your testimony. Ranking Member Cooper and I have spent a lot 
of time together visiting the NRO and the NGA [National 
Geospatial-Intelligence Agency] headquarters and getting 
classified mission and threat briefs. We are both focused on 
the opportunities and threats we face.
    And with that, I yield to my friend and colleague from 
Tennessee, Mr. Cooper, for any statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman.
    I would just like to add my welcome to yours, and I look 
forward to hearing the testimony of the witnesses. Thank you.
    Mr. Rogers. General Shelton, it is all you.

 STATEMENT OF GEN WILLIAM SHELTON, USAF, COMMANDER, AIR FORCE 
                 SPACE COMMAND, U.S. AIR FORCE

    General Shelton. Mr. Chairman, Representative Cooper, 
distinguished members of the subcommittee, it is an honor to 
appear before you today as the commander of Air Force Space 
Command. It is also my privilege to appear before you with 
members of distinguished colleagues and members of the national 
security space
enterprise.
    Since its inception a little over 30 years ago, Air Force 
Space Command has made significant progress in evolving and 
sustaining space capabilities to underpin operations across the 
spectrum of conflict. We have established three major goals to 
ensure these foundational capabilities are available to the 
warfighter and to the Nation. First, to provide assured full-
spectrum space capabilities; second, to develop highly skilled 
and innovative space professionals; and, finally, to provide 
resilient integrated systems that preserve operational 
advantage for the warfighter.
    Within the bounds of the current fiscal climate, we are 
managing increased risk across the enterprise, while 
modernizing, sustaining, and acquiring space capabilities 
consistent with our national priorities. Accomplishing this in 
an era of declining budgets, growing threats, and increasing 
requirements is no small challenge. And we face a new daunting 
challenge, providing these foundational capabilities in an 
environment of sequestration.
    In my command alone, I had to find $508 million in 
reductions for the remainder of fiscal year 2013. The chaos 
created by operations and maintenance account reductions this 
large in this short time period cannot be overstated. At the 
top of this list is the significant and justifiable angst of my 
civilian workforce facing the prospect of a 20-percent pay cut 
for the last 14 weeks of this fiscal year.
    As we look to the future, I strongly urge your support to 
amend the law to create the flexibility required to enable 
smarter decisions. Despite our fiscal challenges, we will work 
together with these mission partners and with industry to find 
innovative approaches to providing vital space capability.
    I thank the committee for your steadfast support of Air 
Force Space Command and our people, and thank you, Mr. 
Chairman.
    [The prepared statement of General Shelton can be found in 
the Appendix on page 33.]
    Mr. Rogers. Thank you, General.
    Ms. Sapp, you are recognized for 5 minutes for your opening 
statement.

  STATEMENT OF BETTY SAPP, DIRECTOR, NATIONAL RECONNAISSANCE 
                             OFFICE

    Ms. Sapp. Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the committee, I am pleased to appear 
before you today on behalf of the NRO. It is an honor for me to 
appear alongside our mission partners from the Department of 
Defense. The NRO's close relationship and continuing 
collaboration with our DOD [Department of Defense] partners is 
vital to maintaining this nation's superiority in space.
    I would like to begin with a few words about the state of 
the NRO today. First and foremost, I am proud to report that 
all of our major system acquisition programs are green, meeting 
or beating all performance, costs, and schedule goals. 
Additionally, for the fourth year in a row, the NRO received a 
clean audit opinion on our financial statements.
    The NRO's all-green acquisition scorecard and clean audit 
record are best proof of our commitment to excellence and 
conscientious stewardship of taxpayer dollars. We have also 
continued our record of success on the launch front, launching 
with our partners in Air Force four systems in just 5 months 
last year. The missions were so problem-free that we brought 
most of the systems and the critical capabilities they deliver 
into operations ahead of schedule. This speaks, again, to our 
commitment to excellence and to the quality of our partnership 
with the Air Force.
    Moving forward, the NRO is leveraging key investments in 
our R&D [Research and Development] and in commercial 
technologies to deliver a future architecture designed to 
improve persistence, to better our performance against hard 
targets, resilience in the face of increasing threats, and 
affordability in the face of current and likely future budget 
constraints.
    As General Shelton mentioned, the current fiscal year is a 
challenge, and I want to touch briefly on the effects that 
sequestration is having on the NRO. Internally, we have reduced 
all infrastructure costs, including those directly supporting 
the mission. We have significantly reduced our core 
contractors, key to everything we do from R&D to operations. We 
have also had to reduce funding for our major system 
acquisition programs, cuts that represent increased risk to 
that record of acquisition success.
    We are also proposing--and I stress proposing--that we 
terminate some of our legacy operational programs. The 
capability those programs provide, while important, are beyond 
our documented requirements. We are vetting this proposal 
through the community.
    So while we are doing everything we can to minimize the 
mission impacts of sequestration, some difficult choices will 
have to be made and may be felt by those who count on us.
    Despite our fiscal challenges, the NRO is committed to 
sustaining the support most critical for our warfighters 
worldwide. In addition to traditional NRO ISR [Intelligence, 
Surveillance, and Reconnaissance] capabilities, we provide a 
wide array of systems and capabilities integral to the highest-
priority missions, including identifying, locating, and 
tracking high-value targets, special communications support, 
and counter-IED [Improvised Explosive Device] efforts.
    In the counter-IED area, one of our most successful 
programs continues to be RED DOT. RED DOT takes all the sources 
of indications of warnings available, combines them into an 
integrated picture, then sends that site picture out directly 
to the tactical user to include the HMMWV [High-Mobility 
Multipurpose Wheeled Vehicle] on patrol. Last year alone, RED 
DOT indications resulted in the find and removal of 235 IEDs 
from the battlefield, a huge success for the program and a real 
lifesaver for our men and women in harm's way.
    In summary, the NRO remains committed to maintaining our 
record of acquisition and mission success, while also 
delivering a more persistent, resilient, and affordable future 
architecture. I would be happy to follow up with you for more 
detailed discussions as to how our systems directly support our 
warfighters and the national security of the United States.
    I want to thank the committee for the support you have 
shown me and the men and women of the NRO. Thank you again for 
the opportunity to be here today.
    [The prepared statement of Ms. Sapp can be found in the 
Appendix on page 53.]
    Mr. Rogers. Thank you, Ms. Sapp.
    Mr. Klinger, you are recognized for 5 minutes for your 
opening statement.

    STATEMENT OF GIL KLINGER, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE, SPACE AND INTELLIGENCE OFFICE (AT&L), U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Klinger. Thank you, Chairman Rogers, Ranking Member 
Cooper, and members. It is my pleasure to be part of this 
distinguished panel representing the spectrum of disciplines 
that are key to ensuring the success of our space acquisition 
programs, from policy and governance to acquisition oversight, 
program execution, and, finally, to our critical partnership 
with the intelligence
community.
    In that vein, I would like to highlight the activities we 
have undertaken to provide a coherent, balanced national 
security space program that prepares for future challenges, 
supports our strategic guidance, and represents our commitment 
to accomplish these goals, while executing affordable programs, 
improving efficiency and execution, and strengthening the 
industrial base.
    Last year, I testified that in fiscal year 2012, we 
evaluated space acquisition reform initiatives. I am pleased to 
report that in fiscal year 2013, these initiatives are 
integrated into the Department's Better Buying Power 2.0 to 
better manage the costs of acquisition, while achieving 
affordable programs. We are refining our contract strategies to 
incentivize productivity and innovation and to promote 
effective competition.
    This year, a significant example of promoting competition 
includes the restructured, Evolved Expendable Launch Vehicle 
program, which will enable new commercial entrants to compete 
with the incumbent launch provider. We are moving forward to 
introduce competition as early as possible with a more 
efficient contracting strategy for acquiring space launch 
services and associated launch capabilities for the Department 
of Defense and the intelligence community's satellite programs. 
These actions resulted in an estimated savings of over $1 
billion in the Future Year Defense Program, below the fiscal 
year 2013 President's budget, without excessive and 
unacceptable risk.
    As we continue to consider potential alternative 
acquisition and procurement strategies across the national 
security space portfolio, we are committed to a disciplined 
cost approach that incorporates full funding and incremental 
funding. Additionally, the Under Secretary of Defense for 
Acquisition, Technology and Logistics and the Service 
acquisition executives have established affordability targets 
for the majority of our large critical space programs.
    We are also assessing how to take better advantage of 
commercial opportunities. We will continue to pursue more 
production-oriented processes and quantities as part of each 
overall mission architecture. This approach may result in 
greater affordability and reduced time to fielding in the 
future. Your authorization in fiscal year 2012 to incrementally 
fund up to 6 fiscal years to procure two Advanced Extremely 
High Frequency satellites and your fiscal year 2013 
authorization to fund two Space-Based Infrared System 
satellites are reflected in the fiscal year 2014 President's 
budget.
    As you know, we are committed to balancing the 
modernization of mission capability with the associated risks, 
both in acquisition and operations. It is paramount that we 
deliver the capabilities the warfighter will need in the 
future, given the evolving threats. The 2014 budget proposal 
increased investments over last year in the Space Modernization 
Initiative for missile warning to inform future acquisition 
decisions and anticipate evolving threats.
    Also, the savings from the Advanced Extremely High 
Frequency fixed-price strategy will support continued Space 
Modernization Initiative research and development activities. 
Excuse me.
    The Department is implementing various Better Buying Power 
initiatives to make GPS [Global Positioning System] more 
affordable and to ensure we sustain this critical global 
utility. These include a modified acquisition strategy for the 
current buy of GPS III satellites five through eight from a 
cost-plus to a fixed-price contract to limit risk to the 
Government and encourage the prime contractor to implement 
cost-cutting measures.
    In fiscal year 2014, the Department's budget proposal 
requests funding for an assessment to determine if we can 
accelerate the military GPS user equipment program and funds 
the development of the next-generation operational control 
system. Both are required to enable a new military signal to 
further improve our GPS anti-jamming capability.
    I am pleased to report in fiscal year 2012 we completed the 
architecture studies for resilient-based satellite 
communications, space control, and overhead persistent infrared 
capabilities. These studies helped the Department frame 
potential decision points for follow-on capability, including 
alternatives to extend production for current programs.
    In calendar year 2013, the Defense Space Council is 
providing the senior steering for ongoing analysis of 
alternatives for space-based environmental monitoring, space 
situational awareness, and protected satellite communications. 
The capabilities we are considering include commercial 
augmentation, international cooperation, hosted payloads, and 
other key changes to the way we have done the space business in 
the past. All of these initiatives are included in our second 
submission of the 15-year space investment plan.
    Finally, thank you for your continued support. Overseeing 
space acquisition requires a constant steady hand over a long 
period of time. We appreciate your willingness to engage with 
us as we consider all of the ramifications of the various 
architecture alternatives, business models, and industry 
impacts we are addressing to provide a space capability that 
addresses warfighter needs, prepares for future challenges, 
looks after the broad range of our taxpayer--of our national 
security interests, and protects the United States taxpayer.
    I look forward to reacting to your questions.
    [The prepared statement of Mr. Klinger can be found in the 
Appendix on page 63.]
    Mr. Rogers. Thank you, Mr. Klinger.
    And, Mr. Loverro, you are recognized for 5 minutes for your 
opening statement.

   STATEMENT OF DOUG LOVERRO, DEPUTY ASSISTANT SECRETARY OF 
       DEFENSE, SPACE POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Loverro. Thank you, Chairman Rogers, Ranking Member 
Cooper, and members of the subcommittee, thank you for the 
opportunity to testify this afternoon.
    A year ago, Ambassador Schulte testified here about the 
Department's progress in implementing the national security 
space strategy. I am pleased to join General Shelton, Ms. Sapp, 
and Mr. Klinger to continue that discussion today.
    Let me start with the basic reality that space remains 
vital to our national security. But that evolving strategic 
environment increasingly challenges U.S. space advantages, 
advantages that both our warfighters and our adversaries have 
come to appreciate. As space becomes more congested, 
competitive, and contested, the Department must formulate 
programs and policies that will secure those advantages in the 
years to come.
    That reality is juxtaposed with the fact that as a nation, 
we are providing these capabilities in an environment that is 
increasingly cost-constrained. The growing challenges of the 
budget, in addition to the increasing external threats, compel 
us to now think and act differently so that in the future what 
we choose to procure and how we choose to provision it reflect 
both the changed threat and fiscal environment.
    While these two realities present a clear challenge, I do 
not by any means view them with a sense of doom or gloom. New 
entrepreneurial suppliers alongside our legacy suppliers are 
creating an ever-burgeoning commercial space market that can 
provide a significant advantage to the DOD if we formulate the 
policies and strategies to encourage their growth and use.
    Similarly, there has been a growth worldwide in allied 
space investment in capability, and that provides significant 
opportunities for the DOD to help us build resilience into our 
space capabilities. The policies and strategies that I will 
discuss today begin to address these challenges and 
opportunities, but they are just the initial steps in an area 
that will continue to demand attention and action from us all.
    Thank you, and I look forward to your questions.
    [The prepard statement of Mr. Loverro can be found in the 
Appendix on page 72.]
    Mr. Rogers. Thank you. I thank all of the witnesses.
    We will now go into the question period of our hearing, and 
I will start off first with General Shelton. An effective and 
affordable space launch program is an essential capability for 
the military. Please describe the policy for assured access to 
space and how you plan to implement this policy and maintain 
necessary launch capability, as well as to conduct a fair 
evaluation during the potential future competition of certified 
launch providers.
    General Shelton. Mr. Chairman, as you said, this is 
foundational. We have got to have space launch capability, 
access to space. What we have decided to do is continue with 
our current provider, tremendous success record of United 
Launch Alliance. We are so proud of the operational success we 
have seen from them. However, launch is very expensive.
    So we have opted to introduce competition, new entrants 
into the business. However, having said that, we want to have 
them certified to perform at the mission assurance standard 
that we have come to expect, so there is a very rigorous 
certification process that we will work through with these new 
entrants, the ones that have established a statement of intent 
with us that they want to have national security space launches 
as part of their business base.
    As we look to the future in trying to provide this level 
playing field, this competitive playing field that is fair and 
equitable to everyone involved, we have established a block-buy 
strategy where we will buy 36 cores from United Launch 
Alliance. We have reserved 14 core vehicles for competition. 
United Launch Alliance, as well as certified new entrants, can 
compete for those 14 launches.
    That level playing field will be interesting to define, and 
we are working through that right now. And the reason for that 
is, we have decided to provide a launch capability with United 
Launch Alliance that provides for the infrastructure, provides 
for the operational crew force, provides all those baseline 
capabilities that are necessary to have a space launch 
capability, and then buy individual boosters, booster by 
booster.
    There is much more than just the booster cost, obviously, 
in each space launch, so deciding how to allocate those across-
the-board capabilities in a per-launch basis will be a 
challenge for us, but that is our strategy, that is our way 
ahead.
    Mr. Rogers. What is the timeline on that certification 
process?
    General Shelton. It actually depends on each provider, sir. 
As they have launches, as they work through the certification 
process with us, it is up to them. It is up to them to have 
whatever pace they would like to have.
    Mr. Rogers. Okay. And, General Shelton, would you consider 
the ELC [Evolved Expendable Launch Vehicle (EELV) Launch 
Capability] a subsidy?
    General Shelton. No, sir.
    Mr. Rogers. Why not?
    General Shelton. It is an efficient way to do business when 
we have got a single launch provider, because it gives us the 
operational flexibility we need, it gives us the ability to 
exchange crews between East Coast and West Coast. It just 
provides that foundational level that we need across the entire 
enterprise.
    Mr. Rogers. Thank you.
    Ms. Sapp, can you provide your perspective on the 
importance of maintaining a launch capability and, in general, 
the unique requirements of the NRO?
    Ms. Sapp. Yes, Mr. Chairman. We do rely on Air Force to 
provide a launch capability for us. We definitely leverage 
their efforts. The NRO is reliant on ULA [United Launch 
Alliance] right now, just as the Air Force is. We are doing our 
own certification, again, in a very cooperative way with the 
Air Force for other providers. We would hope that they are 
ready by fiscal year 2015. We were actually on contract today 
with SpaceX for a smaller mission, but we would expect them to 
compete for a mission we have in 2015.
    We are certainly the ones who use the West Coast most 
often. And we are certainly the ones who use heavy lift most 
often. So, again, we rely on what the Air Force provides in the 
way of launch capability.
    Mr. Rogers. Thank you.
    Changing topics, Mr. Loverro, are you aware of any 
commercial satellite services the Department procures in which 
the People's Republic of China has significant ownership 
interest?
    Mr. Loverro. Yes, Mr. Chairman, I am. We do lease some 
satellite services from some Chinese companies right now to 
support JUONS [Joint Urgent Operational Needs Statements] that 
were issued by some of our operational commanders early last 
year.
    Mr. Rogers. Do you see reasons why we should be concerned 
about that?
    Mr. Loverro. Mr. Chairman, I became aware of these leases 
as I assumed this new post about a month ago. We initiated 
discussions with DISA [Defense Information Systems Agency], 
with the Joint Staff on better ways to go ahead and manage that 
capability and decisions to enter into those arrangements. We 
are looking forward to, in fact, coming out with a process that 
would go ahead and examine those closely as we move forward.
    Clearly, we have to go ahead and balance operational need 
with the security arrangements there. In the case of this 
particular lease, it was the only lease available to support 
the operational need, but we also recognize that we need to 
have a good process to assure this is vetted across the 
Department.
    Mr. Rogers. Great, thank you very much. The chair now 
recognizes the ranking member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    The elephant in the room--and maybe I should say, in the 
interest of bipartisanship, also the donkey in the room--this 
startling statement from General Shelton on page 16 and 17 of 
his testimony, when he said, quote, regarding sequestration, 
``The chaos created in my command by operations and maintenance 
reductions this large in this short time period cannot be 
overstated.'' Then he goes on to say that, ``The rigidity in 
the law dictates that we must cut every appropriated line item 
in our budget, severely restricting our trade space. I strongly 
ask for your support for the reprogramming actions that will be 
needed to enable smarter decisions.''
    When I hear chaos in any military program, I get worried. 
And I want to give my colleagues a heads-up--and this doesn't 
have to be my amendment--but I would encourage my colleagues to 
jointly work together to figure out some way of granting 
flexibility here so that we do not create chaos in an extremely 
important branch of our military or in the--similar problems 
are being felt throughout the military as a whole.
    This does not suggest reducing the amount of cuts. It is 
just allowing some flexibility. Whether it is in the form of 
reprogramming or in other ways, I think this is an urgent 
national priority. And I just appreciate General Shelton, by 
having put it in clear language, although it was way back on 
page 16 or 17 of the testimony, that we really need to consider 
flexibility.
    And, of course, the usual committee procedure would be to 
wait for the NDAA and the markup process and--I am even 
thinking that perhaps this should be a standalone effort to go 
ahead, because, you know, tomorrow, we will vote on the helium 
reserve. You know, today we quit work at, what, 1:30 in the 
afternoon? You know, there has got to be a more timely way to 
address this problem, again, not reducing the amount of the 
cuts, but granting the necessary flexibility so that we are not 
creating chaos in the space service or other parts of our 
military.
    So just a quick heads-up. It doesn't have to be my 
approach. I would be honored to co-sponsor an approach 
sponsored by the majority. But there has got to be a way to 
minimize the effect of sequester on the Pentagon.
    So, thank you, Mr. Chairman. I appreciate the opportunity 
to put in my two cents' worth. And I don't know if General 
Shelton wants to add to that, but you made this most clear in 
your testimony.
    General Shelton. Thank you, sir. And you are exactly right. 
It is not so much the level of the cut--although none of us 
want to take cuts--but it is the rigidity in the law that 
requires every line item to be cut. So it gives you no 
opportunity to make smart trades. We just have to take the cuts 
as mechanically assigned.
    Mr. Rogers. And I thank the gentleman, and I agree with his 
concerns and would like to see something done. I will be 
talking with the full committee chairman and seeing if there is 
anything intended during our upcoming activities.
    But with that, we will turn to Mr. Lamborn for any 
questions he may have.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General Shelton, I want to ask you about the joint mission 
systems program, which is an important program, since it is 
responsible for tracking and analyzing our space assets. I know 
this program has had some challenges. It is difficult to 
replace and upgrade the old, fragile system. This committee has 
strongly supported using commercial technology to upgrade the 
system faster and to save money, and I understand the Air Force 
is now starting to incorporate commercial software solutions.
    But I am concerned, after reviewing the proposed budget 
request, that there appears to be some slippage and delay in 
integrating commercial technologies. Can you tell me where you 
stand on this? And could you provide me an update and a 
briefing personally in the next couple weeks on how we can 
accelerate this process?
    General Shelton. Yes, sir. I would be glad to provide the 
briefing. But as you may recall, what we have designed here is 
a very open architecture system, taking advantage as we can of 
not only Government off-the-shelf software, but also commercial 
off-the-shelf software. We are now on contract with two 
providers of that commercial off-the-shelf software to provide 
some very interesting capability for both visualization and 
computational power.
    So this is the system that provides the foundation for 
space situational awareness. It will in the future, once we get 
all the capabilities included, give us the ability to fuse all 
sorts of data from disparate sources, so it is not just the 
dedicated Government space surveillance capabilities, but we 
can also ingest data from commercial providers, from 
potentially other governments, allies, so on and so forth. So 
we are very happy with where this is going. We would like for 
the pace to be a little bit faster. We are subject--it is 
almost a level of effort kind of build to funding, if you will, 
kind of program.
    So as we take cuts like we did from the HAC [House 
Appropriations Committee] this last year, it adjusts the 
program downward a little bit, slows it down a little bit, but 
we will come back up on plane here very shortly with the 
program.
    Mr. Lamborn. Okay, thank you very much.
    Mr. Loverro, the Department proposed to terminate the 
Operationally Responsive Space program again in fiscal year 
2014. The threats to our space systems are real, and ORS 
[Operationally Responsive Space] has streamlined acquisition 
capabilities to address urgent warfighter needs. Congress has 
expressed the importance of this program, both in law through 
the 2007 NDAA [National Defense Authorization Act], and most 
recently in the 2013 authorization and appropriations acts, 
which provided funding for ORS, despite the Department's 
request to cancel it.
    How does the Department plan to address the needs that are 
intended to be met by Operationally Responsive Space?
    Mr. Loverro. Thank you, Congressman. The Department clearly 
got the Congress's message on ORS. We have, as directed in 
legislation, stood--formed our executive committee, led by the 
Secretary of the Air Force in his role as the executive agent 
for space, and that charter has now been promulgated through 
the Department.
    We have moved the ORS office that was still in existence 
under the Space and Missile System Center, under Air Force 
Space Command, under General Shelton's leadership. We recognize 
that, obviously, in budget--because of budget restrictions, 
there were still choices that needed to be made in terms of 
where we were going to take money from, and yet we also 
recognize the value of ORS as part of that resilient strategy 
that we talked about.
    We are working now to go ahead and figure out how we would 
make it a better part of that strategy and how we go ahead and 
reformulate the program to address those needs.
    Mr. Lamborn. Okay, thank you.
    And lastly, General Shelton, real quickly here, GPS jamming 
remains something that we have to be very concerned about. As a 
result, Air Force has been developing the next generation 
satellite constellation, GPS III. Can you give us a status 
report on this and how many GPS III satellites the Air Force 
would like to procure?
    General Shelton. Yes, sir. We are in contract right now--as 
Mr. Klinger said in his opening statement--we are on contract 
through satellite vehicle number eight. Satellite vehicles nine 
and beyond, the acquisition strategy for that will be debated 
in the fall, and his office will be right in the middle of 
that.
    But we have got a very active GPS III program, that we are 
proud of the progress of it, and we will continue to look to 
the future on what is beyond the contracted one through eight.
    Mr. Lamborn. And is it better to continue that, as opposed 
to starting a whole new fourth generation?
    General Shelton. That is the decision we will have to make 
in the fall. It seems like the answer would be yes, but we will 
study that.
    Mr. Lamborn. Okay, thank you very much. I yield back, Mr. 
Chairman.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. I thank you, Mr. Chairman, and I thank the 
panel for all that you do in a very complex arena.
    In a hearing last week, the issue of ISR came up. You 
probably have heard about it. I think I said it seems to be 
confused as to exactly what the Air Force wants to do, what the 
Navy wants to do, maybe reconnaissance, also. I am not asking 
for the answer here, but we really need to get into a 
comprehensive understanding of what exactly we need to do.
    Ms. Sapp, you raised one of the issues that would come out 
of it, and that is the current work that is being done in 
Afghanistan. It appears as though the assumption is that the 
assets that are currently used in Afghanistan won't be needed 
in the future. And everything I hear from others is that that 
is not likely to be the case.
    So my point here is that we need to understand and the 
confusion that is apparent from the various elements of the ISR 
community need to be integrated and fully understood, because 
we are likely to make the wrong decision here based upon the 
confusion that we are being presented with. So I will let that 
go at that.
    There are a series of questions. I want to go to Mr. 
Loverro. In your response to the China issue, your response was 
incomplete. What exactly were you talking about, if you can 
answer the question here?
    Mr. Loverro. Congressman, I am not sure exactly which part 
is incomplete, but let me try to restate it and maybe you will 
help me along. We are--we recognize that there are concerns 
across the community on the usage of Chinese satellites to 
support our warfighter, and yet as I expressed, we also 
recognize that our warfighters need support and sometimes we 
must go to the only place that we can get it from.
    All of the correct procedures were followed in putting 
those leases together. We reviewed all the security concerns, 
all of the business concerns with such a lease. Those were 
presented to the operational commander, who understood those--
all the encryption necessary to protect U.S. information was 
put into place.
    So from that perspective, I am very pleased with what we 
did. And yet I think the larger issue is, we don't have a clear 
policy laid out on how do we assess whether or not we want to 
do this as a Department, as opposed to just a response to a 
need. And so what we have decided with DISA and with the Joint 
Staff is that we would look at how we put together a process to 
do so.
    I can't tell you any more on what that process will 
involve, because we just decided on this literally a week-and-
a-half ago.
    Mr. Garamendi. I think you just supplemented my point about 
confusion. I should ask you exactly, what was it that the 
warfighters needed? And why didn't we have it?
    Mr. Loverro. Congressman, I can't tell you why we didn't 
have it. What I can tell you is that the warfighter needed 
SATCOM [satellite communications] support in his area of 
operations. He went to the Defense Information Services Agency 
to request that support. In their process, they send out bids 
to their multiple providers. I think they have 17 on contract. 
I am not certain of that number, if you will let me correct 
that later if I need to.
    They went out to their providers. Only one provider was 
able to respond to the need. That is to say, only one provider 
had bandwidth available in order to go ahead and give them, and 
that bandwidth's available only on a Chinese satellite. And so 
that is the communication capability that DISA presented to the 
operational commander, who understood what was involved, how it 
was being handled, and accepted that to meet his need.
    Mr. Garamendi. I thank you for the completeness of the 
answer and the confirmation of the need for us to have full 
understanding of the ISR requirements, whether they are 
satellite, ground-based, or UAV [Unmanned Aerial Vehicle], or 
manned. We are being asked to make significant changes, but 
there doesn't appear to be a comprehensive understanding or 
vision of what is needed. So we will go with that.
    I am going to yield back my remaining 42 seconds, Mr. 
Chairman. Thank you.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Shelton, as I understand it, the current EELV 
[Evolved Expendable Launch Vehicle] provider, United Launch 
Alliance, meets the full spectrum of capabilities across the 
EELV manifest as outlined by the operations and systems 
requirements. Will new entrants be required to provide launch 
services across the full spectrum of EELV launches, even the 
most heavy and complicated mission payloads, as the incumbent 
provider currently does?
    General Shelton. Congressman, that is the going-in 
position. That is not to say that that won't change, but the 
going-in position is that the new entrants would have to come 
with that full suite of capability, but as we compete for those 
14 launches in the future, those will be launch by launch. So 
as we work through those, it could be that it is not a full 
capability across the board.
    But that is our going-in position. We want to have--we 
don't want to have a launch provider that is just in one little 
niche. We want them to have the full segment of capability.
    Mr. Coffman. Well, then do you believe that having a system 
that doesn't require the full spectrum creates an uneven 
playing field for the incumbent, given that they must maintain 
capabilities and costs across the entire spectrum?
    General Shelton. That remains to be seen, sir. I mean, we 
will have to judge that at the time, because there could be a 
host of providers that cover the full spectrum. It is all about 
assured access to space and mission assurance, so we are just 
going to have to work our way through this as this matures.
    Mr. Coffman. Okay. General Shelton and Mr. Klinger and Mr. 
Loverro, through the Enhanced View program, commercial space 
imagery is utilized to provide rapid delivery of mission-
critical, unclassified imagery for U.S. and coalition partner 
missions. This is the only source of unclassified high-
resolution imagery that can be immediately disseminated and 
shared with U.S. and coalition partners. This program was cut 
by 50 percent in fiscal year 2013, and now there is only one 
U.S. vendor supplying this imagery.
    Will you support stable funding of the remaining portion of 
the contracts so that this extremely valuable capability is not 
lost or weakened? Why don't we start with General Shelton?
    General Shelton. Sir, I am going to have to let someone 
else answer that question.
    Mr. Coffman. Okay.
    General Shelton. That is really not in my area.
    Mr. Coffman. Mr. Klinger.
    Mr. Klinger. I think, overall, we certainly support 
stability in funding that program, but with--as you understand, 
Congressman, with sequestration going on and the fiscal 
environment, budgetary environment that we are in, many things 
are under review right now, so there is no question that we 
support the President's budget at this point, which provides 
for the continued services of that one provider. We will just 
have to see in the ensuing months how this develops.
    Mr. Coffman. Mr. Loverro.
    Mr. Loverro. Congressman, a little bit out of my wheelhouse 
in this particular issue. I certainly agree with everything 
that Mr. Klinger just said. Clearly, Enhanced View provides a 
capability to the warfighter. Again, we have to go ahead and 
examine in this budget environment how we maintain that 
capability into the future. I don't think I have anything else 
to add to that.
    Mr. Coffman. Okay. General Shelton, maybe you can answer 
this. How did the Air Force determine what satellite payloads 
to set aside for competition? And which programs were part of 
the ULA block buy?
    General Shelton. Sir, the only ones we have actually set 
aside so far are two that are really more research and 
development, science and technology kinds of efforts, and we 
felt like we could perhaps take a little bit more risk. So 
rather than our--one of our mainstream programs, which is very 
critical to national security, we could set aside these couple 
of efforts here and assume just a little bit more risk.
    And the advantage of that, of course, is furthering the 
competition in new entrants and so on and so forth.
    Mr. Coffman. General Shelton, will the future EELV launch 
providers be required to comply with data requirements and cost 
accounting standards of similar programs and included certified 
cost or price data to protect the taxpayers' interest?
    General Shelton. Yes, sir. They would be held to the same 
standards.
    Mr. Coffman. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the chairman emeritus of the 
committee, Mr. Turner of Ohio.
    Mr. Turner. Well, thank you, Mr. Chairman. I appreciate 
that, yes. Thank you. Mr. Garamendi just pointed out that that 
translates to ``has-been.'' I don't know.
    [Laughter.]
    Thank you for that vote of confidence.
    Before I ask my question, I just wanted to say one thing on 
the ranking member, who I have a great deal of respect for. We 
are going to have significant amount of debate here on 
sequestration and what needs to occur. I, for one, as many of 
this panel are aware, because I frequently pointed out, I voted 
against this mess because I was afraid we would be right here, 
right where we are, in a stalemate without any solution.
    But I want to caution against a rush to provide 
flexibility, because as the ranking member stated, it would not 
reduce the amount of cuts--and I am very fearful that we would 
be in a timeframe--in a time where the sequestration number 
becomes the new norm. And many of the cuts that sequestration 
are going to inflict are not going to result in savings. They 
are actually going to result in increased costs later.
    And my concern is, as we just heard from the commandant of 
the Marines and General Odierno today, that both of them state 
that at the sequestration numbers, that they would be unable to 
have confidence of success in one major conflict where our 
national strategy has been frequently two.
    So although, you know, I certainly agree that what is 
occurring is wrong and should not be done, I know we are going 
to be receiving--and I don't want to give the General chills--
as we are going to be receiving a major request for 
reprogramming, I certainly think that level of cooperation 
between Congress and DOD and the Pentagon needs to occur, but a 
broad flexibility, I think, would impose that number, which I 
think is the wrong number on the Department of Defense. So as 
that debate continues, I just want to caution there.
    General Shelton, the Department has made very significant 
improvements in Overhead Persistent Infrared, or OPIR. And the 
newest Air Force satellite, satellite Space-Based Infrared 
Systems, SBIRS, doing amazing work, as we all know, in the--
what is highly needed in the area of missile warning, missile 
defense, battle space awareness, and technical intelligence. 
Last year, we included in the NDAA a provision requesting 
information on the exploitation of that information. 
Specifically in section 915, we asked for an assessment of 
whether there are further opportunities for the Department of 
Defense and the intelligence community to capitalize on 
increased data-sharing, fusion, interoperability, and 
exploitation.
    My question goes to, have you seen some successes in that 
cooperation and the sharing of that information the like that 
our committee was hoping would occur? And also, if you could 
indicate any role that you see that NASIC [National Air and 
Space Intelligence Center] plays in that area of sharing that 
information, thank you.
    General Shelton. Yes, sir. NASIC has been at the forefront 
of OPIR exploitation for quite some time. In fact, the National 
Geospatial-Intelligence Agency has designated them as the 
center of excellence for that kind of work. We turn to them for 
not only new ways to apply that data, but also the exploitation 
of that data to look at--to identify new types of missiles to 
provide what we call templates for those missiles so that we 
can quickly identify, when one of those missiles launches, we 
can say that is that type of missile. That is the work that 
goes on at NASIC.
    There has been incredible sharing between Ms. Sapp's 
people, our folks, NASIC, cooperating across the board to 
further the ability of us to exploit this wonderful data that 
is coming off SBIRS. And we have not even scratched the 
surface, I think, of the potential that is there.
    We have another sensor that we haven't fully exploited yet 
as part of that satellite. We are doing a good job on the 
scanning sensor. The staring sensor, which has much better 
fidelity, we really haven't fully wrung out yet, because we 
have been so focused on getting the scanning sensor calibrated 
and certified.
    So I think NASIC is going to be right in the forefront of 
that and the cooperation between us, Ms. Sapp's people, the NGA 
people, I think, is going to just further that effort.
    Mr. Turner. Well, General, on a personal note, I told you 
before this hearing, I know the members of this committee and 
myself personally greatly appreciate your strong voice and your 
highly substantive expertise. You have been a great assistance 
to this committee, as we have looked to, you know, what is 
really occurring and how do we need to respond, and thank you 
for your personal dedication.
    Mr. Rogers. The gentleman yields back.
    The chair now recognizes my colleague from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    I would like to echo some of the comments of my good friend 
from the State of Ohio, Congressman Turner, and his comments 
concerning sequestration. While flexibility is good, proper 
funding for national security is better. The President's 
sequestration idea, which was promoted by the Republican House 
leadership, the Democrat Senate leadership, and a majority of 
the Democrats in Congress and a majority of the Republicans in 
Congress, quite frankly, is, as the President said in his State 
of the Union, a bad idea.
    It is inappropriate to make national defense absorb over 60 
percent of the cuts in the Budget Control Act, when it is only 
16 percent, 17 percent of total Federal Government spending. 
That is not proper prioritization, in my judgment. And as an 
aside, that is why I voted against the Budget Control Act in 
August of 2011.
    Having said that, General Shelton, quick question for you. 
Does the current Evolved Expendable Launch Vehicle provider 
meet the full spectrum of capabilities across the EELV manifest 
as outlined by the operations and systems requirements, which 
in turn are as articulated in the operational requirements 
document and systems requirements document?
    General Shelton. Easy answer, sir, and that is yes.
    Mr. Brooks. Will any new entrants into this market be 
required to provide launch services across the full spectrum of 
EELV launches, even the most heavily and complicated mission 
payloads, as the incumbent provider is so required?
    General Shelton. Yes, sir, that is our going-in position. 
However, as we work our way through this and we look at the 
ability of new entrants to compete for launches, we may adjust 
that strategy. But our going-in position is they will have to 
meet the full spectrum.
    Mr. Brooks. Well, if new entrants are allowed to ignore 
some elements, does that create an uneven playing field, in 
your judgment, for the incumbent provider who must maintain 
capabilities across the full EELV spectrum and those added 
costs associated with those added stringent requirements?
    General Shelton. Yes, sir, that is something we are going 
to have to assess as we go.
    Mr. Brooks. On a different issue now, General Shelton, the 
Air Force currently launches all of its major satellites in a 
single launch configuration, but this year's budget includes a 
request for development of a dual-launch capability for the GPS 
mission. Why is this important to the Air Force? And what are 
the anticipated savings or advantages?
    General Shelton. Yes, sir, this is all about lowering 
launch costs, so if we can put two GPSs together on a little 
bit bigger booster than what we launch on today, we believe 
that there will be a significant savings. I can't give you a 
dollar figure right off the top of my head here, but I could 
get that for you.
    We believe that that will be the best way to launch GPSs in 
the future. And we are talking about GPS III satellite vehicle 
nine and out. The die is already cast one through eight, but 
nine and out, that is what we are looking at.
    Mr. Brooks. And this next question is for the full panel, 
whomever may wish to jump on it. As many of you are aware, we 
have considerable reliance on liquid rocket technology from 
decades ago. While our EELV launch program is extremely 
successful, it stretches the performance to the limits of what 
the engines were designed for. Should we be prioritizing 
efforts for liquid rocket engine development? And if so, is the 
greatest need in the upper stage or main engines? And lastly, 
how is the Department working with NASA [National Aeronautics 
and Space Administration] to ensure scarce resources in this 
area are properly utilized?
    Mr. Klinger. Congressman, the Air Force is reviewing the 
terms offered by ULA in the block-buy strategy to determine the 
optimum contract terms for annual quantity buys. And what that 
is doing is stabilizing the supplier market for liquid rocket 
engines. In addition, the new entrant, the onset of competition 
and the prospect of competition is also stimulating some work 
in the industrial base.
    We have needs for both main stage and upper stage, and I 
will be glad to take for the record to provide you a more 
detailed answer. We do also work very closely with NASA on a 
number of fronts, and both Ms. Sapp's organization, General 
Shelton's organization work in strong partnership with NASA on 
issues such as the liquid rocket industrial base.
    Mr. Brooks. Thank you, Mr. Chairman. I yield back the 
remainder of my time.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes my colleague from Texas, Mr. 
Veasey, for any questions he may have.
    Mr. Veasey. Mr. Chairman, thank you very much. I appreciate 
that.
    And just wanted to just talk with you about the--looking 
forward in the future, about what we need to be doing to make 
sure that we maintain, I guess, superiority as far as space is 
concerned, from a defense standpoint. I know that, you know, we 
are always concerned about other countries developing 
technologies rapidly and quickly. And, like, where are we at as 
far as space and defense and how that all relates versus other 
countries that may be also trying to develop these same sort of 
strategies that we have or technologies that we have? And 
anyone that can answer the question, be happy to----
    General Shelton. [Off mike.]
    Mr. Loverro. Thank you, General Shelton.
    Congressman, yes, this is--you know, as you know, in the 
space policy promulgated in 2010 by the President and the 
national space security strategy that we published a little bit 
later in 2011, we recognized fully the growing concerns in 
threats to our space
systems.
    I think we have a multifaceted strategy to go ahead and 
deal with those across the lines of industrial competitiveness, 
some of which we have already talked about in the launch 
market, but just as thoroughly in the satellite side, as well, 
resilience efforts, trying to go ahead and make sure that our 
architectures are adjusted as we move to the future to be far 
more resilient against any enemy attacks, protection efforts 
that we can't necessarily talk about in here, but that we are 
looking at for all of our space systems, and then, quite 
frankly, and probably most importantly, the space situational 
awareness efforts that General Shelton has already mentioned to 
make sure we understand what is going on in space, and those we 
feel are foundational to the protection of our space systems 
and clearly one of the strongest parts of our investment going 
forward.
    All of those come together to try to address the concerns 
that we see in the future from adversary nations. Clearly, we 
are at the beginning of this endeavor. And I think we will be 
happy to talk to you more about those as we move forward.
    Mr. Veasey. Just out of curiosity, are there other 
countries outside of obvious places like China that may also be 
competing in this arena that we may not be aware of? Or not--I 
say that we may not be aware of, that may not be talked about 
as often as, let's say, what is going with our--you know, 
competition with the Chinese on just about everything?
    Mr. Loverro. Yes, Congressman. I don't want to go ahead and 
go into specifics here today, if you will allow me----
    Mr. Veasey. Okay.
    Mr. Loverro [continuing]. Come back and give you a clearer 
view, but we are aware of most activities across the world in 
this regard.
    Mr. Veasey. Okay, thank you.
    General Shelton. Sir, if you would let me follow up, if you 
consider our military operations for the last 21 years, 22 
years, since 1991, we have been in major combat operations 
sustained over that time. Other nations have had the 
opportunity to go to school on us. They know how involved we 
are with space capabilities, how integrated they are, and it is 
a nice way to asymmetrically challenge us and our combat 
capabilities.
    So it doesn't take a whole lot of imagination to figure out 
what they might be up to in terms of space capabilities and 
what they would do to our space capabilities, given the 
opportunity. So it is a large concern of ours, and it is clear 
to us that not only with the budget challenges, but with the 
increasing threats, the status quo just won't do.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes my colleague from Florida, Mr. 
Nugent, for 5 minutes.
    Mr. Nugent. Gentlemen, thank you for being here. And, 
General, thank you so much for your service, and Ms. Sapp, too, 
we appreciate it. And I know Mr. Loverro was also in the 
service. We appreciate all of you.
    And particularly as we talk about space--and Mr. Veasey hit 
on China in regards to--you know, they have taken some 
proactive actions in regards to showing that they have at least 
the capability or the intent to neutralize satellites in space. 
In an unclassified setting, could you tell me a little bit 
about how we think we are going to be--and you talk about 
resiliency--how we going to react to that? And is there a ``red 
line'' in regards to their actions?
    General Shelton. Well, I will start. Red lines are policy 
questions, so I will have to punt that to Mr. Loverro. But in 
terms of how we react, we can't get into much detail here, but 
let me talk about the threat for just a second.
    If you go back to 2007, we saw the Chinese very 
successfully test an ASAT [anti-satellite] capability. That is 
not easy. Technologically, that is not easy. That is literally 
a bullet with a bullet, and they did a very good job. 
Unfortunately, they generated tens of thousands of pieces of 
debris at the same time, and I would call that polluting the 
low-Earth orbit, which makes operations for some of our mission 
partners quite a challenge.
    So I think we need to pay very close attention to 
activities there. I think there are technological capabilities 
that have been revealed there that we need to pay attention to.
    Mr. Nugent. And it is not only the kinetic, obviously, but 
we have issues in regards to the nonkinetic ability. The GAO 
[Government Accountability Office] annual report hit on a 
duplication overlap and fragmentation of space launch 
acquisition process for NASA and DOD, that they are not 
formally coordinated, that they may duplicate one another and 
may not really fully leverage our ability in our investment for 
space exploration, but also space
defense.
    What are we doing to--and this could go to any one of you--
what are we doing to work with NASA to see that we are getting 
the best bang for our buck?
    Mr. Klinger. Congressman, we believe that we work very 
closely throughout the Department of Defense with the 
intelligence community, with Ms. Sapp's organization and Air 
Force Space Command and the corporate Air Force, along with 
NASA, on a whole range of fronts. We have extensive R&D 
cooperation in the propulsion area. We combine efforts--the new 
entrant certification guide that you heard General Shelton talk 
about, which underpins competition, was actually jointly 
developed by NASA, the Air Force, and the NRO, so it is a 
combined activity.
    So we think there is actually a high level of cooperation 
in those areas where cooperation makes the most sense. We don't 
think there is unnecessary overlap amongst the different 
efforts. We do think there are places where requirements--our 
mission requirements legitimately diverge, the best example 
being NASA's requirement for human rating, and that imposes a 
level of requirements that is somewhat different and arguably 
more stringent in certain ways than are the requirements 
associated with the satellite launch--the booster programs that 
support the satellite launches that we provide, but we believe 
that there is a high level of cooperation ongoing on a number 
of fronts on a routine basis.
    Mr. Nugent. So that report--obviously, you know, GAO puts 
out reports that are somewhat broad-brushed. And you didn't see 
anything that would heighten our attention to it, in regards to 
waste? I mean----
    Mr. Klinger. I did not, sir.
    Mr. Nugent. Okay.
    General.
    General Shelton. I would just say that I believe that--at 
its basis--they would advocate for a single contractual 
vehicle, and I just don't think that is very realistic.
    Mr. Nugent. Possible.
    General Shelton. I mean, as Mr. Klinger said, there is a 
tremendous amount of cooperation among the space partners in 
this Government. So it doesn't concern me.
    Mr. Nugent. I appreciate it. Appreciate your comments, and 
I yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes himself for a second round of 
questions. General Shelton, I believe we both agree on the 
level of threat to our space systems and the need to develop 
necessary space defenses and a resilient architecture. But 
there seems to be a significant focus on the disaggregation as 
the solution to address this. To what extent has DOD validated 
the assertion that disaggregated architectures offer greater 
resiliency, operational efficiency, and/or cost savings?
    General Shelton. Mr. Chairman, those studies are under way 
right now. We haven't leapt on that bandwagon yet, but it 
appears to us, from the results that we have seen so far, that 
there is an advantage to disaggregation. As I said earlier, 
with the budget reductions that are here upon us now, with the 
threat that is here upon us now and further developing, there 
is a recognition that the status quo is just not adequate.
    So we have to do something for sure to--even if the budget 
was restored, we have to do something for sure to address the 
threat. And part of that solution set that we have come to thus 
far has been, let's disaggregate these large, monolithic 
satellites into less complex, smaller satellites, and at least 
complicate the targeting calculus for an adversary.
    So that is what we are about. We are still studying these 
things. We haven't made any decisions yet, but it sure looks 
promising.
    Mr. Rogers. Ms. Sapp, what are your thoughts on this 
resiliency issue and disaggregation in particular?
    Ms. Sapp. I think it is very mission-specific, in terms of 
what the satellites are supposed to be doing for the Nation. So 
for us, disaggregation doesn't work as well, and we are taking 
steps to provide resilience through both ground measures and 
space-based measures, and we certainly rely on the Air Force to 
provide space situational awareness.
    So, again, we have measures we have in place today, and 
certainly more we are adding in the fiscal year 2014 plan.
    Mr. Rogers. Great, thank you.
    I want to talk about commercial satellites right now with 
Mr. Klinger and Mr. Loverro. The Defense Business Board 
recently finished an interesting study on commercial satellite 
services. The study showed we could save money if we procure 
commercial satellites services more efficiently. What efforts 
are under way in the Department to address this issue? And we 
will start with you, Mr. Klinger.
    Mr. Klinger. Mr. Chairman, you are right. It was our boss, 
Mr. Kendall, that went to Dr. Carter, the deputy secretary, and 
proposed that study that turned into the Defense Business 
Board. Building on those results, the Department has initiated 
a 90-day study to determine the best way forward, and Mr. 
Kendall announced this a couple of weeks ago. It is a study 
that will be jointly led by the Under Secretary for 
Acquisition, Technology and Logistics and the CIO [Chief 
Information Officer], who has a lot of supervisory 
responsibilities in this area, and the focus will be on how 
best the Department can move forward to take better advantage 
of commercial goods and services in a commercial communications 
space area.
    Mr. Rogers. Mr. Loverro.
    Mr. Loverro. Certainly, Congressman. I, number one, concur 
wholeheartedly with everything that Mr. Klinger says. This is a 
key area for us, as I indicated in my opening comments. The 
leveraging of commercial space is one of the hallmarks of how 
we are going to move forward, both building resilience and to 
go ahead and address the budget issues we have. Commercial 
space has grown immensely over the last two decades. We have 
taken advantage of them in a--in what many have considered--and 
I think with the report you quoted--it is not the best economic 
approach, and we recognize that, and we recognize that there is 
a need to change that.
    The study that Mr. Klinger talked about, I think, is the 
exact right way to address the best way to go ahead and do 
that.
    Mr. Rogers. You know, I was troubled by the fact the report 
also notes that no senior official claims sole responsibility 
for SATCOM, and multiple DOD officials asserted ownership of 
key components of SATCOM. What is being done about this 
leadership issue, if anything? Mr. Klinger.
    Mr. Klinger. I think that is within the scope of the study, 
is we are not just going to look externally, Mr. Chairman, in 
terms of our relationship with industry, but one of the things 
that this study is going to look at is our internal processes 
both in terms of statute and policy, as well as how we are 
organized to manage and adjudicate commercial satellite goods 
and services, and that is one of the issues that will be within 
the scope of this 90-day study.
    Mr. Rogers. Well, good. Well, in these days of austerity, 
that is something that we need to be focused on like a laser.
    Mr. Klinger. Yes, sir.
    Mr. Rogers. The chair now recognizes the ranking member for 
any additional questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    If I could return to the topic of sequestration, I have 
great respect for my colleagues who also focused on this topic. 
And without being in any way adversarial, I would just like to 
point out for the record that the Commander of Space Command in 
his testimony said that he needed flexibility. And without 
having that flexibility, we have what he described as chaos, 
which could not be overstated in his command.
    Now, that would mean to me, trying to read in the 
testimony, that he needs flexibility. Now, that is perhaps not 
all that he would like to have--and I don't in any way want to 
limit General Shelton--because you are entitled to ask for more 
money, as well--but in your testimony, you acutely need right 
now flexibility. And yet that is what Congress is not 
providing.
    So reprogramming authority would help reduce the chaos or 
help the command. I am for it. There are many other things I 
would like to have, but I don't want the best to be the enemy 
of the good. And in the meantime, shouldn't we be reducing 
chaos in Space
Command?
    Now, that is the flexibility issue. And I am not for 
holding Space Command or any part of the military hostage until 
I get what I want, because I want you to have flexibility now 
when you need it.
    On the issue of more funding, I think all of us on this 
committee would like more funding. Right now, we don't quite 
know how to get it. So in the meantime, let's offer 
flexibility.
    Now, there are ways, probably, to provide more funding. You 
know, the House has passed a budget--as it usually does--now 
for the first time in 4 or 5 years. Even the Senate has passed 
a budget. But we are refusing to conference the budgets, so 
that is our fault, and we should not punish the military or 
Space Command for that failure to even have a conference 
committee.
    I hope, perhaps, one side or the other will relent and we 
can have a conference committee, regular order, and actually 
maybe agree on a budget. That would be nice. But in the 
meantime, we need flexibility. So let's consider granting 
flexibility.
    I am not trying to be argumentative or hard here. I am just 
saying, here we have a commander who is doing an excellent job, 
pointing out a need. Shouldn't we on the subcommittee and in 
the full HASC [House Armed Services Committee] consider meeting 
that need? That shouldn't be too hard. And let's work on the 
money issue at the same time, and I hope we can get more money, 
because that would ease a lot of problems.
    But this is an amazing situation, where we are choosing not 
to listen to our commanders, when they clearly express a need. 
We all have ears. We have got to use them and try to help out 
when we can, because I think this is a problem that is 
Congress-inflicted. It is really a self-inflicted wound. And we 
should not take out this disagreement on our men and women in 
uniform or in our valuable other agencies that, in my opinion, 
are doing an extraordinary job of serving the needs of the 
nation, even during these very difficult circumstances.
    So as I say, I don't want to be argumentative. I just want 
us to logically try to figure out a way to solve this problem. 
And I appreciate the excellent job that the witnesses before us 
are doing.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes Mr. Coffman for any additional 
questions he may have.
    Mr. Coffman. Thank you, Mr. Chairman. Just a quick 
statement. A comment to what Mr. Cooper has said. I think he 
raised two points.
    First, I think, conferencing on the budget, I--you know, 
the budget is merely a blueprint to show priorities in 
spending. And so it is a nonbinding document. I don't know that 
that is important for us to conference there, but I think what 
is important that Mr. Cooper said is the need for flexibility. 
I think that I am disappointed in my colleagues on both sides 
of the aisle, to include the President, when they don't want to 
give flexibility merely to prove a point, to show how bad 
sequestration is in order to gain more funding or to gain a tax 
increase, where I think we need flexibility for purposes of 
national security.
    We need flexibility across the board to allow Government to 
work. And this notion that we are going to show the American 
taxpayers how Government can't work by not giving them 
flexibility is simply the wrong path. And so I certainly second 
Mr. Cooper's comments when it comes to providing that 
flexibility.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes another chairman emeritus, Mr. 
Langevin of Rhode Island, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I appreciate you 
holding this hearing before us, and I want to thank our 
witnesses for being here today, as well.
    Well, let me start off by saying that I would first like to 
note this has been a pretty eventful week in the week of the 
space launch world, with the successful launch of the Orbital 
Sciences Antares vehicle on the practice space station resupply 
mission. I think we would all agree, the successful launch of 
Antares puts Orbital in a similar trajectory, if you will 
pardon the pun, with SpaceX.
    And obviously, if SpaceX continues forward on its plan to 
build the Falcon 9 Heavy and the--and Orbital is successful, 
these two companies will be positioned to satisfy the Air 
Force's demanding requirement to have a dual-launch capability 
and a heavy-launch capability. In other words, if SpaceX and 
Orbital proceed as planned, achieving the ``new entrant'' 
criteria appears almost certain. And thus, the Government would 
be well-positioned to reduce their launch course radically. 
So--and this is before we even start to consider other entrants 
that could compete down the line, such as Lockheed Martin or--
and ATK.
    So if all of the above proceeds as planned and these new 
entrants are certified within 3 years contractually, my 
question is, how difficult will it be to move the majority of 
our launches to a less expensive provider? And more 
specifically, has the Air Force provisioned termination options 
within the block-buy acquisitions? And if so, how will the 
program comply with the Federal acquisitions regulations by 
which the program evaluates market research and alternative 
sources? And what would be the transition costs in that case?
    General, let's start with you.
    General Shelton. Yes, sir. We have designed this block-buy 
approach with that flexibility in mind. So we have--we are 
committing to 36 cores with ULA preserving these 14 cores for 
competition. That will certainly prime the pump, so to speak, 
on new
entrants.
    So if they get certified, they can compete for those 14 
launches. And then beyond the 5-year acquisition timeline for 
this new block buy, then it is a brand-new competition, all 
players involved, all certified players involved.
    Mr. Langevin. Okay, very good. Before my time expires, then 
let me turn to something else. With regard to commercial 
imagery, our international competitors are not letting up, as 
some are currently selling imagery at resolutions below what we 
are protecting via export controls. And others are gearing up 
to do the same.
    So in order to sustain our industry's competitiveness, 
would you support a relook at commercial remote-sensing export 
restrictions currently listed in the section 1248 report 
regarding space export control policy reform? Modernization of 
these items, some would, I would say, would help ensure our 
satellite industry remains not only made in America, but also 
second-to-none.
    Mr. Loverro. Yes, Congressman. Certainly, as technology 
marches on, we recognize the need to adjust our policies, and 
so we definitely would support a relook as we move forward.
    Mr. Langevin. Okay, I would encourage that. I think that is
important.
    Let me turn to this. As the Air Force and, to some extent, 
the National Reconnaissance Office currently fund 
infrastructure and other facility support costs for the 
incumbent provider in order to help the committee to understand 
the current arrangement of the contract with the incumbent, can 
you describe why cost-plus vehicle is in place, given the 
maturity of the program?
    General Shelton. I guess I don't know the basis of why--
specifically why that was decided to be cost-plus.
    Mr. Klinger. Yes, I think, if we may, we would take that 
for the record and get you--get you a more detailed answer, 
Congressman.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Langevin. Okay. Fair enough. I will take that one for 
the record. I see my time is about to expire, as well. I will 
yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from California, Mr. 
Garamendi, for any additional questions he may have.
    Mr. Garamendi. Thank you, Mr. Chairman.
    I would like to continue to pursue some of the questions 
that Mr. Cooper has raised. General Shelton, the--you have 
asked for flexibility. I assume that is flexibility within your 
domain and not--or are you talking about flexibility within the 
entire Department of Defense?
    General Shelton. Yes, sir. Again, the mechanics of the law, 
every line-item appropriation hit----
    Mr. Garamendi. I understand.
    General Shelton. So the flexibility would be--let us make 
those choices internal to the Department and make 
prioritization decisions, as opposed to those decisions being 
preordained.
    Mr. Garamendi. Okay. So it is within the entire Department 
of Defense budget, not just your budget?
    General Shelton. Yes, sir.
    Mr. Garamendi. If you had the opportunity to prioritize 
within your budget, what would you eliminate or reduce?
    General Shelton. Well, that is a very good question. I 
would like to be able to--I would like to have the flexibility 
to line the programs up one to n, and we look across the board 
and determine, which programs are we going to--at the lower end 
of the priorities, which programs would we actually cut in 
terms of paying operations and maintenance bills, in terms of 
sustaining our acquisition programs whole.
    What is being built up here--and I don't think everyone 
realizes this--but as you take these bites out of every 
program, there is a bow wave of expenses that are going to the 
right here. At some point in the future, these bills come due, 
and it may be next year.
    Mr. Garamendi. Bow wave? Is that an appropriate term for 
the Air Force?
    [Laughter.]
    General Shelton. It could be a term of art.
    Mr. Garamendi. It worked. It worked. We understood it. I 
think you have just described the conundrum that we are going 
to face. All members of the House Armed Services Committee have 
their favorite programs, and the prioritization process, if it 
requires our involvement, is likely to lead to a difficult and 
probably a time-consuming process, which is the normal NDAA. 
You, I suspect, do not want to have to go through all of that, 
and I suspect your colleagues in the other parts of the 
Department of Defense don't,
either.
    And so I think what Mr. Cooper is probably--I will speak 
for him for a moment--a blanket authority to prioritize, to 
achieve the $85--whatever--the billion dollars that would be 
required, is going to result in some of our sacred cows being 
sacrificed.
    That may be a good thing at the end of the day. But 
nonetheless, therein lies the problem that I think you are 
going to face, not that we should not do it, but that we would 
like to know what you are going to reduce, prioritize, so that 
we might participate in what is ultimately our authority.
    I will let it go at that, but that is a process that would 
have to--I think have to take place from Mr. Cooper's 
suggestion to become law. And I do think his suggestion should 
become law. Thank you very much.
    Mr. Rogers. I thank the gentleman for yielding back.
    The chair believes--is led to believe that the gentleman 
from Rhode Island would like to be recognized again?
    Mr. Langevin. If I could, just----
    Mr. Rogers. Absolutely.
    Mr. Langevin. Thank you, Mr. Chairman.
    One last question, if I could, General Shelton or Mr. 
Klinger. What is the status of the new acquisition strategy for 
the Evolved Expendable Launch Vehicle program? How did the Air 
Force determine which satellite payloads to set aside for 
competition? And which programs were part of the ULA block buy? 
And finally, how does the Air Force plan to manage this 
competition to ensure a level playing field?
    General Shelton. Yes, sir. As we looked--we set aside two 
missions, and those missions were research and development, 
science and technology kind of based missions. They weren't 
operational--mainstream operational missions. So we felt like 
we could take a little bit more risk, set those aside, and 
provide those as seed corn, if you will, toward new entrant 
certification. So that is just part of the process, setting 
those aside, making them a vehicle toward
certification.
    We believe that we will have a struggle here, as we try to 
allocate expenses that are now part of the foundational launch 
capability, allocate those to an individual mission cost, if 
you will, because that is not the way we do it right now. We 
provide the launch bases. We provide the launch crews. That is 
just the cost of doing business, if you will. And then we buy 
booster by booster.
    Allocating those fixed costs, if you will, booster by 
booster is going to be a bit of a challenge for us to do an 
apples-to-apples competition. But that is our job to do, and we 
will do it.
    Mr. Langevin. True. I think a level playing field in that 
competition is absolutely essential, to make sure that we are 
comparing apples-to-apples and----
    General Shelton. Yes, sir.
    Mr. Langevin. Thank you.
    Mr. Klinger, do you have anything else to add?
    Mr. Klinger. You asked about--Congressman, you asked about 
the acquisition strategy, and that was signed--the amendment to 
the existing acquisition strategy was signed in February 2013.
    Mr. Langevin. Okay. Very good. Thank you very much. I will 
yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. And I want to thank our 
witnesses again for your participation and your preparation. I 
would remind all the witnesses that the hearing record will be 
left open for 10 days. There may be some members who could not 
make it today that would have some questions that they would 
submit to you in writing, or maybe some of the members here who 
think of something afterwards they would like to get an answer 
from. So I would ask you to respond to those in writing.
    And with that, this committee is adjourned.
    [Whereupon, at 4:53 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             April 25, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 25, 2013

=======================================================================


                     Statement of Hon. Mike Rogers

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

         Budget Request for National Security Space Activities

                             April 25, 2013

    Good afternoon. I want to welcome everyone to the Strategic 
Forces Subcommittee's hearing on the fiscal year 2014 budget 
request for national security space activities. Our 
distinguished panel of experts this afternoon are:
        <bullet> LGeneral William Shelton, Commander of Air 
        Force Space Command;
        <bullet> LMs. Betty Sapp, Director of the National 
        Reconnaissance Office;
        <bullet> LMr. Gil Klinger, Deputy Assistant Secretary 
        of Defense, Space and Intelligence Office; and
        <bullet> LMr. Doug Loverro, Deputy Assistant Secretary 
        of Defense for Space Policy.
    I appreciate your time in appearing before this 
subcommittee, and I thank you for your leadership in national 
security space.
    Space is a critical element of our national security, in 
both peace and wartime environments. I am very concerned of the 
impact of sequestration on national security space programs, 
and I appreciate hearing more from you, during your opening 
statements, on this issue.
    Potential adversaries have taken note of our reliance on 
space, and are developing the means to degrade, deny, or 
destroy our capabilities. Just like in the evolution of ground, 
sea, and air platforms, when defenses and survivability 
mechanisms had to be developed to keep pace with the threat, 
now this is happening with space systems.
    I am pleased to see the Department's recognition of the 
threat, as evidenced by the increased investment in space 
situational awareness in the fiscal year 2014 budget request. 
But I remain concerned on the future implementation of space 
defense and resilience, to include breaking-up or 
``disaggregating'' programs that we've invested billions to 
develop and are just starting to provide the necessary 
capabilities for the warfighter. I look forward to further 
dialogue and study of this important topic.
    Separately, I commend the Department on the significant 
advances it has made on many space programs. After years of 
massive cost and schedule overruns, we have entered a new 
period of stable procurement and incremental development. As 
noted above, I am skeptical when I hear that we now may want to 
break up these successful programs.
    For instance, the Air Force recently reported that new 
block-buy strategies for the Space-Based Infrared System, 
Advanced Extremely High Frequency Satellite, and the Evolved 
Expendable Launch Vehicle program are resulting in over $2.5 
billion in savings over the next 5 years.
    That is a tremendous success for the military and the 
taxpayer and I hope to see those savings reinvested to provide 
the necessary modernization initiatives in accordance with 
warfighter requirements.
    Thank you again for being with us today, and I look forward 
to your testimony. Ranking Member Cooper and I have spent a lot 
of time together visiting an NRO ground station, the NGA 
headquarters, and getting the classified mission and threat 
briefs. We're both focused on the opportunities and threats we 
face in space. 


[GRAPHIC] [TIFF OMITTED] 80769.001

[GRAPHIC] [TIFF OMITTED] 80769.002

[GRAPHIC] [TIFF OMITTED] 80769.003

[GRAPHIC] [TIFF OMITTED] 80769.004

[GRAPHIC] [TIFF OMITTED] 80769.005

[GRAPHIC] [TIFF OMITTED] 80769.006

[GRAPHIC] [TIFF OMITTED] 80769.007

[GRAPHIC] [TIFF OMITTED] 80769.008

[GRAPHIC] [TIFF OMITTED] 80769.009

[GRAPHIC] [TIFF OMITTED] 80769.010

[GRAPHIC] [TIFF OMITTED] 80769.011

[GRAPHIC] [TIFF OMITTED] 80769.012

[GRAPHIC] [TIFF OMITTED] 80769.013

[GRAPHIC] [TIFF OMITTED] 80769.014

[GRAPHIC] [TIFF OMITTED] 80769.015

[GRAPHIC] [TIFF OMITTED] 80769.016

[GRAPHIC] [TIFF OMITTED] 80769.017

[GRAPHIC] [TIFF OMITTED] 80769.018

[GRAPHIC] [TIFF OMITTED] 80769.019

[GRAPHIC] [TIFF OMITTED] 80769.020

[GRAPHIC] [TIFF OMITTED] 80769.021

[GRAPHIC] [TIFF OMITTED] 80769.022

[GRAPHIC] [TIFF OMITTED] 80769.023

[GRAPHIC] [TIFF OMITTED] 80769.024

[GRAPHIC] [TIFF OMITTED] 80769.025

[GRAPHIC] [TIFF OMITTED] 80769.026

[GRAPHIC] [TIFF OMITTED] 80769.027

[GRAPHIC] [TIFF OMITTED] 80769.028

[GRAPHIC] [TIFF OMITTED] 80769.029

[GRAPHIC] [TIFF OMITTED] 80769.030

[GRAPHIC] [TIFF OMITTED] 80769.042

[GRAPHIC] [TIFF OMITTED] 80769.043

[GRAPHIC] [TIFF OMITTED] 80769.044

[GRAPHIC] [TIFF OMITTED] 80769.045

[GRAPHIC] [TIFF OMITTED] 80769.046

[GRAPHIC] [TIFF OMITTED] 80769.047

[GRAPHIC] [TIFF OMITTED] 80769.048

[GRAPHIC] [TIFF OMITTED] 80769.049

[GRAPHIC] [TIFF OMITTED] 80769.050

[GRAPHIC] [TIFF OMITTED] 80769.031

[GRAPHIC] [TIFF OMITTED] 80769.032

[GRAPHIC] [TIFF OMITTED] 80769.033

[GRAPHIC] [TIFF OMITTED] 80769.034

[GRAPHIC] [TIFF OMITTED] 80769.035

[GRAPHIC] [TIFF OMITTED] 80769.036

[GRAPHIC] [TIFF OMITTED] 80769.037

[GRAPHIC] [TIFF OMITTED] 80769.038

[GRAPHIC] [TIFF OMITTED] 80769.039

[GRAPHIC] [TIFF OMITTED] 80769.040

[GRAPHIC] [TIFF OMITTED] 80769.041

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 25, 2013

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, I am aware that the 
Air Force's EELV Launch Capability efforts are currently contracted 
using a cost-type contract. The Air Force is assessing the contract 
type as they implement the USD(AT&L)'s direction to commit to up to 36 
launch vehicle cores with United Launch Alliance and will assess it 
again if the Launch Capability is retained in future phases of the EELV 
program. [See page 24.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 25, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. 1) What steps has DOD taken to improve the management 
of requirements in order to reduce program risk?
    General Shelton. The Air Force has taken several steps to reduce 
program risk by improving management of requirements through increased 
education and improvements to the requirements generation process. 
First, all Air Force requirements managers must complete the 
Requirements Management Certification Training through Defense 
Acquisition University courses. Second, each Air Force program entering 
the requirements process must complete Requirements Risk Assessments 
that are validated through the Air Force Requirements Oversight Council 
and Joint Staff. This validation ensures program requirements are 
vetted against the most significant risks to warfighter missions. 
Third, during the Analysis of Alternatives (AoA) phase of the 
acquisitions cycle, cost versus capability analyses ensure that 
decision makers can make smart decisions on cost versus capability 
trades. Fourth, capability development documents, based on decisions 
from the AoA, focus research and development efforts on validated 
warfighter requirements to guide program managers and reduce the risk 
of requirements creep.
    Mr. Rogers. 2) How can space acquisitions be made affordable during 
years of budget constraints? What needs to change in the acquisition 
paradigm, if anything?
    General Shelton. Making space acquisition more affordable demands 
greater partnership with industry, increased cooperation with our 
partners and allies, finding ways to decrease launch costs and ensuring 
our space architectures are resilient. With the appropriate legislative 
and policy guidelines in place, we can increase our industry and 
international partnerships to lower costs in those space mission areas 
best suited for partnership and focus resources on space mission areas 
that are less risk tolerant. The Department also needs to continue to 
explore distributed architectures during the Analysis of Alternatives 
portion of the acquisition process. Where it makes sense to move away 
from few, monolithic systems to more, smaller systems, we should do so 
to both increase resiliency and decrease launch costs. For launch 
costs, we should simultaneously continue to increase competition in the 
launch arena by both encouraging new entrants and leveraging market 
conditions that support more than one viable launch provider.
    Mr. Rogers. 3) Is there an effort to move toward firm fixed-price 
contracts? Why?
    General Shelton. The Air Force Space and Missile Systems Center 
(SMC) has moved toward use of more fixed-price contracts where 
appropriate. As SMC's larger programs move from development to 
production, program requirements have stabilized and manufacturing 
processes are becoming more mature, making it sensible to shift to 
fixed-price contracts. SMC also uses firm fixed-price (FFP) contracts 
for more commercial-like satellite procurements like the Wideband 
Global Satellite system. In addition, the Joint Space Operations Center 
(JSpOC) Mission System (JMS) is being executed using commercial, FFP 
contract vehicles for software applications.
    Mr. Rogers. 4) What is the status of the new acquisition strategy 
for the Evolved Expendable Launch Vehicle program? How did the USAF 
determine which satellite payloads to set aside for competition, and 
which programs were part of the ULA block-buy? And, how does the Air 
Force plan to manage this competition to ensure a level playing field?
    General Shelton. The Air Force is implementing a revised Evolved 
Expendable Launch Vehicle (EELV) acquisition strategy approved by the 
Defense Acquisition Executive (DAE) on February 11, 2013, which 
includes a quantity and rate commitment to stabilize the industrial 
base, as well as certification criteria for new entrants. All qualified 
competitors will have an opportunity to compete as early as FY15. A 
quantity commitment of 36 cores (supporting all National Security Space 
programs) allows ULA, the current EELV provider, to purchase economic 
order-type quantities of critical parts and components, run production 
lines more efficiently, and reduce non-recurring engineering costs. The 
strategy sets aside up to 14 cores (based on physical capability of new 
entrant expected performance), in addition to the above commitment, for 
competition as early as FY15 if new entrants become certified. If no 
certified competitor is viable at the time of need, these missions will 
be awarded to the incumbent, under variation in quantity and 
configuration (VIQ&C) provisions to be negotiated into a contract with 
ULA.
    The specific method in which the current incumbent EELV Launch 
Capability (ELC) and EELV Launch Services (ELS) costs will be competed 
with new entrants has yet to be determined, but will be addressed in 
the Source Selection Plan. The details of the competition are being 
developed and will ensure the best value for the Government among all 
certified providers and will be conducted in accordance with Federal 
Acquisition Regulations.
    Mr. Rogers. 5) What is the process to assess the risk 
classification of payloads for the Evolved Expendable Launch Vehicle?
    General Shelton. National Security Space (NSS) Payloads are 
classified by each responsible agency using a common set of criteria as 
specified in the coordinated New Entrant Strategy. These criteria 
include national significance, complexity, mission lifetime/
constellation health, cost, launch constraints, in-flight maintenance 
and re-flight opportunities. NSS missions will usually be assigned a 
Class A risk designation; however, some may be assessed as Class B 
based on the above criteria.
    Mr. Rogers. 6) In GAO's annual report on duplication, overlap, and 
fragmentation, it reported that ``Space launch acquisition processes 
for NASA and DOD are not formally coordinated, duplicate one another, 
and may not fully leverage the Government's investment because the 
Government is not acting as a single buyer.'' Please identify cost 
savings opportunities and identify what is being done to reduce 
duplication and leverage investments.
    General Shelton. Current U.S. Space Transportation Policy (NSPD-
40), December 2004, assigns separate responsibilities to the Secretary 
of Defense and the NASA Administrator to purchase launch services for 
national security requirements and civil requirements, respectively.
    We continue to pursue the goal of improving efficiencies and 
improving the Government's buying power for Evolved Expendable Launch 
Vehicle (EELV) launch vehicles and are working with our NASA colleagues 
in such a way as to achieve this goal while still allowing each agency 
to perform its assigned space-related responsibilities.
    We believe wholesale consolidation is not viable due to the unique 
responsibilities of each agency. That said, the Air Force is leveraging 
the combined Air Force/NASA/NRO buying power to obtain a more favorable 
economic order quantity pricing construct in the FY13-17 Launch Vehicle 
Production Services contract which will benefit all ULA customers.
    Mr. Rogers. 7) What is DOD doing, or planning to do, to define and 
assess its mission assurance costs and activities, and to what extent 
will the strategy protect against overly high launch vehicle prices 
compared with mission assurance changes/efficiencies resulting from 
these assessments? Further please outline how mission assurance for 
national security space missions differs from commercial space
missions.
    General Shelton. The Air Force Space and Missile Systems Center 
(SMC) collaborates with our industry partners to ensure our space 
system acquisitions are cost effective with acceptable risk. In the 
last five years, we have experienced unprecedented success in our 
launch operations. The experience we have gained based on mission 
assurance priorities and requirements are being used to identify 
opportunities to reduce mission assurance costs. Also, in collaboration 
with industry, we are identifying non-value added tasks or unnecessary 
operations.
    The Evolved Expendable Launch Vehicle (EELV) new entrant 
acquisition strategy is to permit commercially available launch 
services with proven mission practices and design to compete for 
contract awards. New entrants wishing to participate in the EELV 
program must meet SMC mission assurance standards for launch systems 
development and operations.
    Government requirements for risk management and mission assurance 
are different from those of the commercial market. Commercial space 
systems, when launched, focus on loss to capital and typically use 
private insurance to offset any losses. National Security Space 
missions measure loss in terms of mission capability and are self-
insured. Typical mission assurance costs are approximately 5% of the 
total cost of the satellite and launch vehicle. This level of expense 
is justified in light of the operational and financial costs of a 
launch failure.
    Mr. Rogers. 8) How will certified cost and pricing data 
requirements be applied to EELV contractors, both currently and in a 
potential future competition?
    General Shelton. New entrants will be required to comply with 
applicable accounting standards related to Federal Acquisition 
Regulation, Part 15, contracts and progress payment provisions.
    Mr. Rogers. 9) What are the projected savings for the dual launch 
capability for GPS III? How will you ensure a level-playing field for 
new entrants that might compete for GPS launches?
    General Shelton. Dual launch is an approach to lowering launch 
costs. It originated in the FY13 President's Budget as a potential cost 
savings/risk mitigator and relieves operational congestion to the 
Consolidated Launch Schedule and Launch Manifest at the Eastern Range. 
This effort is not yet on contract, so the cost data available is an 
estimate. We anticipate a total cost avoidance of approximately $500M 
through FY29 if operational considerations allow utilization of dual-
launching GPS on a routine basis.
    It is the Government's intent to provide assured access to space at 
the best value to the Government, and not to posture one launch 
provider with a competitive advantage. Any costs associated with 
mission-unique payload integration will be expressly excluded from 
consideration during competition to ensure a level playing field and no 
unfair advantage for the incumbent.
    There are numerous unknowns concerning potential new entrants and 
the performance characteristics of the launch vehicles they are 
developing. Along with certified new entrants, dual launch capability 
will be an invaluable tool to reconstitute a critical constellation of 
satellites quickly. When a new entrant becomes certified, the Air Force 
will reassess the best solutions with the criteria laid out for any 
full and open competition.
    Mr. Rogers. 10) How is resilience measured and what are the most 
important steps the U.S. needs to take in order to create space systems 
that are resilient to threats?
    General Shelton. Resilience is a combination of both quantitative 
and qualitative inputs. The proposed DOD definition of resilience for 
space is ``. . . the ability of an architecture to support the 
functions necessary for mission success in spite of hostile action or 
adverse conditions. An architecture is `more resilient' if it can 
provide these functions with higher probability, shorter periods of 
reduced capability, and across a wider range of scenarios, conditions 
and threats. Resilience may leverage cross-domain or alternative 
Government, commercial, or international capabilities.'' As this 
definition is less than two years old, DOD organizations continue to 
refine ways for quantitative resilience analysis during the budget 
review and space Analysis of Alternatives processes. These quantitative 
measurements will, necessarily, vary across the space mission areas.
    Air Force Space Command is developing metrics to measure the 
resilience of providing capabilities to the warfighter and Nation based 
on warfighter requirements and threats. The Air Force is currently 
evaluating mission areas through Space Modernization Initiative (SMI) 
investments and other studies to determine what steps should be taken 
to ensure the Air Force provides resilient capability in the 
increasingly congested, contested, and competitive space environment.
    Mr. Rogers. 11) Please describe the current efforts and priority 
you are placing on space situational awareness and space protection.
    General Shelton. Space capabilities are critical to enable United 
States and allied forces to accomplish missions ranging from winning 
wars to humanitarian and disaster relief operations. In addition, the 
United States and global economies have become equally reliant on space 
capabilities. The first step in being able to protect those 
capabilities is having the Space Situational Awareness (SSA) to detect, 
track, and identify human-made objects in Earth orbit; characterize 
threats, hostile, unintentional and even environmental; and integrate 
space situational data into decision quality information. SSA is 
fundamental to the protection and sustainment of our capabilities.
    For SSA, our first priority is to preserve current capabilities in 
light of the difficult decisions that were necessary to comply with 
sequestration. The next priority is to narrow the gaps imposed by 
current system limitations and increasing threats. Air Force Space 
Command (AFSPC) is investing more capable ground sensors, satellites 
and modernizing data integration and processing.
    In parallel to enhancing our SSA capabilities, AFSPC is also 
studying approaches to protecting our critical space assets. Our 
current efforts are focused on developing more resilient architectures. 
Leveraging the interest of the entire national security space 
community, we are working to determine the right balance between 
capability, affordability and resilience that will enable a greater 
ability of our architecture to respond to threats, both unintentional 
and intentional. AFSPC will continue to work with the newly chartered 
Space Security and Defense Program, among others, to develop and 
integrate these concepts into our architectures, providing for much 
needed protection of our critical space assets.
    Mr. Rogers. 12) To what extent has DOD validated the assertion that 
disaggregated architectures offer to greater resiliency, operational 
efficiency, and/or cost savings?
    General Shelton. Our efforts to date have focused on evaluating 
more affordable, disaggregated systems as future alternatives to, or 
evolutions of, existing space architectures. In principle, 
disaggregation offers more resilience and achieves cost efficiencies 
through the use of smaller, but individually less capable, satellites. 
Much of the Space Modernization Initiative (SMI) funding will support 
further investigation of disaggregated architectures in order to inform 
decisions on future systems based on operational efficiency, cost and 
resiliency. Initial studies show the use of hosted payloads could yield 
operational efficiency, greater resiliency and potential savings over 
the cost of a free-flying satellite. Demonstrations such as the 
Commercial Hosted Infrared Payload (CHIRP) are validating these 
potential benefits as are other preliminary findings.
    Mr. Rogers. 13) How will the Department decide whether to apply 
disaggregated architecture principles to future space system 
acquisitions? Who will make the final decision whether a disaggregated 
approach is used?
    General Shelton. A standardized methodology for creating and 
analyzing future architectures, including analyses of alternatives, 
will be employed in order to measure disaggregated architectures 
against current architectural baselines. System demonstrations will 
also be used to validate performance and cost estimates and mature new 
technologies for elements of the new architectures. Decisions will be 
made through the standard Planning, Programming, Budgeting and 
Execution process and the acquisition decision process.
    Mr. Rogers. 14) What steps does DOD plan to take, if any, to begin 
working toward disaggregated architectures? For example, are there 
plans to test the applicability of disaggregation at a smaller scale to 
specific mission areas?
    General Shelton. The Department of Defense is already taking steps 
in this area through Space Modernization Initiative (SMI) efforts that 
assist in defining new disaggregated architectures in multiple mission 
areas (e.g., Overhead Persistent Infra-Red and MILSATCOM) and 
demonstrating projects to validate their performance, cost and 
technology maturity. These efforts will assist the Air Force in 
evaluating the concept of disaggregation for decisions on future 
systems.
    Mr. Rogers. 15) What is the status of the Joint Space Operations 
Center Mission System Program? Is the program structured to provide to 
meet requirements at the lowest cost and shortest schedule?
    General Shelton. The Joint Space Operations Center (JSpOC) Mission 
System (JMS) program was restructured in 2011 to significantly reduce 
cost and to accelerate the delivery of capabilities to the warfighter. 
The current program of record provides capabilities to the JSpOC 
through a series of incremental deliveries rather than a single large 
package. The program is also specifically designed to maximize the use 
of existing software products including commercial software whenever 
feasible and affordable. The incorporation of commercially developed 
software, as well as Government developed, is key to meeting cost and 
schedule targets.
    JMS Increment-1 was fielded at the JSpOC in late October 2012 and 
has successfully completed its independent operational test and trial 
period. Increment-1 is currently in use on a daily basis and has 
supported a number of recent high-profile events. JMS Increment-2 began 
integration in April 2013. Increment-2 service packs will be provided 
to the JSpOC from mid-FY14 and through FY16, with deliveries occurring 
every six to seven months. The use of discrete service packs within the 
larger increments provides capability to the warfighter as soon 
possible.
    Mr. Rogers. 16) With the cancellation of the Spaced Based 
Surveillance System (SBSS) follow-on program in the FY14 budget 
request, what is the Air Force position on the need for space situation 
awareness from satellites? Are there any gaps in coverage?
    General Shelton. With Space Based Space Surveillance (SBSS) Block 
10 System becoming operational in August 2012, we continue to meet 
USSTRATCOM requirements for the timely detect, track, and 
identification of deep space objects in all regions of space until its 
end of life (estimated September 2017).
    Without an above-the-weather space-based Space Situational 
Awareness (SSA) system like this, our deep space architecture relies 
largely on ground-based optical telescopes, which are limited by 
daylight and weather, and radars which are limited by sensitivity. The 
resultant sensing gaps afford adversaries freedom of action and delay 
identification of potential unintentional threats such as maneuvers and
conjunctions.
    Because of the capabilities and advantages provided by space-based 
capability, it is critical that we continue to invest in space-based 
platforms as a part of the SSA architecture. This will ensure we 
maintain custody of threats and support threat identification and in 
turn enable defensive action in deep space.
    Given the current budget challenges, Air Force Space Command is 
exploring options and timing for a follow on space-based platform to 
preserve this vital capability at an affordable cost.
    Mr. Rogers. 17) There are various efforts in the Department, namely 
Air Force, Army, and DARPA, to provide rapid, low-cost launch 
solutions. How do you foresee this type of capability being used by the 
warfighter? In light of increasing foreign threats to our space 
systems, how important is it that we prioritize these efforts?
    General Shelton. For many years, the space community has studied 
responsive capabilities. These studies often have been segmented, 
looking at only responsive launch, or only responsive satellites. For 
the concept to be viable, both satellite and launch must be equally 
responsive, and therein lies the problem. We could easily produce 
responsive launch vehicle capability, but for the full mission 
capability to be truly responsive, satellites would need to be ready to 
respond at the same pace as the booster, likely requiring stored and 
ready satellites. This approach is too expensive in the current budget 
climate.
    Additionally, unless offensive action has been taken to neutralize 
the threat that negated existing on orbit capability, responsive 
systems would be launching into the same threat environment that caused 
the loss of the original satellite.
    We are working with the entire community to ensure viable concepts 
of operation, coupled with affordability, to drive our work on 
responsive systems.
    Mr. Rogers. 18) What is being done to monitor any efforts to 
disrupt or degrade our space capabilities?
    General Shelton. Current systems maintain track of satellites and 
debris in orbit. In addition, these systems respond to events such as 
launches, maneuvers and breakups. Further, in concert with our 
intelligence community partners, we are working to understand the 
threats those objects or events may pose to our satellites.
    To improve those capabilities, Air Force Space Command (AFSPC) has 
developed a comprehensive Space Situational Awareness (SSA) 
architecture approach spanning the capability areas. The first 
increment of that SSA architecture is focused on affording the best mix 
of near earth and deep space sensors, along with the requisite data 
integration and exploitation to process the sensor data, integrate it 
with intelligence, environmental and other data and provide timely, 
decision quality information to commanders and other users. This 
architecture will provide a greater capacity for predicting events, 
creating decision space and enabling action.
    To combat the emerging threats to our satellites from cyberspace, 
AFSPC is collaborating with USSTRATCOM and other space community 
partners through an initiative called Crystal Defender which is in 
Phase-II of its analysis, currently conducting a vulnerability 
assessment on the Global Positioning System (GPS) and analyzing the 
nuclear command, control, and communications (NC3) architecture. 
Additionally, focused tiger teams are in place to oversee initiatives 
that establish individual computer network defense service providers 
for each space system. Finally, the integration of space and cyber 
under one command and the lessons learned coming from Crystal Defender 
enable AFSPC to manage security threats and vulnerabilities of the Air 
Force Satellite Control Network (AFSCN) with the same rigor that is in 
place for managing threats in our backbone network for administration, 
business, and mission systems, the Air Force Information Network 
(AFIN).
    Mr. Rogers. 19) What is the process to respond to situations where 
our satellites are interfered with or attacked? Are there established 
``red lines'' and responses?
    General Shelton. Electromagnetic interference (EMI), whether 
purposeful or non-purposeful, can be detected by the system user, 
owner/operator, or through deliberate monitoring activities. Once 
detected, this interference is reported and mitigated through a 
standard process: the owner/operator will notify the Joint Space 
Operations Center (JSpOC) located at Vandenberg AFB. The JSpOC will 
then task assets and request support from the intelligence community to 
assist in determining the type and source of the interference. If the 
interference is determined to be purposeful, it is then reported to 
USSTRATCOM, who will engage with the Department of Defense to determine 
the best course of action. There are currently no established ``red 
lines'' or responses for the attack on a satellite.

    Mr. Rogers. 20) What steps has DOD taken to improve the management 
of requirements in order to reduce program risk?
    Ms. Sapp. The National Reconnaissance Office (NRO) works with its 
partners in the Department of Defense (DOD) and the Office of the 
Director of National Intelligence (ODNI) to ensure the cost and risk 
associated with requirements is understood. This partnership, along 
with NRO's rigorous acquisition policies and management, allow for the 
responsible management of risk in Major System Acquisition (MSA) 
programs.
    Mr. Rogers. 21) How can space acquisitions be made affordable 
during years of budget constraints? What needs to change in the 
acquisition paradigm, if anything?
    Ms. Sapp. The NRO's evolutionary acquisition approach leverages the 
investments already made in a particular program, and makes adjustments 
and changes in response to risks and opportunities. By not ``re-
creating the wheel'' for each program, the NRO can advance technology 
and make any major program changes up front, saving significant costs 
in the acquisition of such specialized systems.
    Mr. Rogers. 22) Is there an effort to move toward firm fixed-price 
contracts? Why?
    Ms. Sapp. The NRO's contracting policy is to assess each 
acquisition and utilize the appropriate contract type based on 
technical, cost, and schedule performance and the risk associated with 
each of these factors. The NRO does not have a policy that emphasizes 
the use of any particular contract type. NRO Directorates and Offices 
are required to brief a proposed acquisition strategy to the NRO 
Acquisition Strategy Council for each Major System Acquisition 12-18 
months prior to release of the solicitation by NRO senior leadership 
and prior to any required approvals by the program Milestone Decision 
Authorities at the Joint Intelligence Acquisition Board. A proposed 
contract type with justification is briefed and reviewed during both 
forums to ensure it results in reasonable contractor risk and provides 
the contractor with the greatest incentive for efficient and cost-
effective performance.
    Mr. Rogers. 23) What is the process to assess the risk 
classification of payloads for the Evolved Expendable Launch Vehicle?
    Ms. Sapp. The NRO, the National Aeronautics and Space 
Administration (NASA) and U.S. Air Force (AF) formalized a common 
approach and criteria for the risk classification of payloads for all 
missions, including those intended to be launched using the Evolved 
Expendable Launch Vehicle (EELV) system. The NRO will assess each 
mission against these common criteria to determine payload risk 
classification.
    Mr. Rogers. 24) In GAO's annual report on duplication, overlap, and 
fragmentation, it reported that ``Space launch acquisition processes 
for NASA and DOD are not formally coordinated, duplicate one another, 
and may not fully leverage the Government's investment because the 
Government is not acting as a single buyer.'' Please identify cost-
savings opportunities and identify what is being done to reduce 
duplication and leverage investments.
    Ms. Sapp. The NRO has taken significant steps to ensure its launch 
activities are fully coordinated with the AF and NASA. As noted in the 
Government Accountability Office report, the three launch agencies have 
formalized our approach to EELV acquisition in a Memorandum of 
Understanding. Strategic acquisition planning is discussed at the 
agency director level at recurring AF-NASA-NRO Summits, while 
programmatic and tactical planning is addressed at the Government 
Expendable Launch Vehicle Executive Board (GEEB) and Launch 
Collaboration Steering Group (LCSG). The GEEB and LCSG provide key 
mechanisms to foster sharing of acquisition planning and lessons 
learned across the NASA, AF, and NRO launch communities. The NRO 
partners with the AF to acquire launches for national security 
missions, and the NRO/AF EELV block-buy acquisition currently underway 
seeks to stabilize current EELV suppliers with a 36 core commitment 
while enabling competition as new launch capability is demonstrated and 
certified. This strategy was discussed by the three agencies as a means 
to provide cost savings to all Government EELV users by stabilizing 
production over the next few years. The NASA keeps the AF and NRO 
apprised of their commercial cargo and crew acquisition planning and 
Space Launch System development plans to further enable stabilization 
of the broader space launch industrial base. Finally, the NRO, AF, and 
NASA have agreed to a common certification approach for New Entrant 
launch service providers, and the NRO is leveraging the certification 
efforts of the AF and NASA in its certification activities. Through 
these efforts, the Government is able to achieve cost savings and to 
leverage investments with minimal duplication through the established 
forums for communication across all management levels.
    Mr. Rogers. 25) What is DOD doing, or planning to do, to define and 
assess its mission assurance costs and activities, and to what extent 
will the strategy protect against overly high launch vehicle prices 
compared with mission assurance changes/efficiencies resulting from 
these assessments? Further please outline how mission assurance for 
national security space missions differs from commercial space
missions.
    Ms. Sapp. In February 2010 the Secretary of the AF commissioned the 
Broad Area Review X Study to provide an updated assessment on the 
effectiveness of the EELV mission assurance process. The study 
recognized that Government mission assurance builds on the launch 
contractor mission assurance and quality assurance processes, and 
recommended that the AF and DNRO should: ``Maintain the current mission 
success/mission assurance focus, and continue to provide resources to 
support the Mission Assurance process that has resulted in 
unprecedented levels of Mission Success over the last decade.''
    The NRO has a dedicated Mission Assurance Team that is focused on 
maximizing mission success for NRO payloads and provides an independent 
technical risk assessment to AF EELV system-level mission assurance. 
The NRO, working with the AF, has refined its contribution to AF-
managed EELV fleet mission assurance and continues to collaborate on 
ways to maintain the highest possible levels of mission success as 
efficiently as possible.
    Most commercial space missions rely on insurance to cover the risk 
of launch and/or spacecraft failure as well as loss of commercial 
revenue streams. Government Launch Vehicle Mission Assurance (LVMA) 
serves as ``insurance'' for Government missions seeking to increase 
probability of success in lieu of payment for lost sunk costs. Most 
Government missions' value to the Nation is well beyond the cost 
expended for the spacecraft and launch, and Government LVMA helps to 
ensure that the critical capabilities of our space systems are not lost 
due to launch failure. Commercial space customers and the insurance 
underwriters benefit from the Government LVMA which seeks to increase 
the overall reliability of the launch system, as demonstrated by the 
current EELV program outstanding success record.
    Mr. Rogers. 26) How is resilience measured and what are the most 
important steps the U.S. needs to take in order to create space systems 
that are resilient to threats?
    Ms. Sapp. For the NRO, a direct measure of space system resiliency 
involves assessing the decrease in collection capability as a function 
of an adversary's counterspace actions. The NRO uses sophisticated 
modeling tradecraft to help make these assessments. The NRO's modeling 
tradecraft combines foreign counter-space threat information provided 
by the Intelligence Community (IC) with the projected effectiveness of 
the resiliency enhancement(s) in question. The resulting information is 
then used to calculate the reduction in collection as a function of 
conflict intensity and time. Due to the variability of the data input, 
statistical analysis is used to obtain the most likely reduction in 
collection for different threat levels and resiliency options.
    The most important step to creating resilient space systems is 
achieving the appropriate balance of system hardening, mission 
operations tradecraft, and architecture diversity. Operational 
tradecraft, including the use of indications and warning to trigger 
courses of action and concepts of operation, offers a cost effective, 
near-term solution to the most likely counterspace threats. 
Architecture diversity, and its coordinated use, not only results in 
more timely and actionable intelligence, but enhances the NRO's ability 
to operate through some of the most challenging threats.
    Mr. Rogers. 27) Please describe the current efforts and priority 
you are placing on space situational awareness and space protection.
    Ms. Sapp. Situational awareness, including the monitoring of space, 
terrestrial, and cyber threats, is a key element of NRO's survivability 
strategy. Continuous monitoring of these elements establishes both a 
baseline of normal activity and changes to the baseline associated with 
foreign counterspace actions. Such monitoring and awareness are 
critical for indicating when potential responses/actions may be 
warranted. Actions available to operators include various courses of 
action and concepts of operation that either minimize or mitigate 
counterspace threats. With regard to Space Situational Awareness (SSA), 
the NRO has key partnerships with the AF to ensure that we have the 
strongest team possible in addressing these critical threats.
    Timely and appropriate response to space situational awareness 
indications and warning is particularly important due to operational 
requirements. Because of this, the NRO places a high priority on 
monitoring, categorizing, and characterizing potential threats through 
all possible means, domains, and partnerships. To further enhance our 
capabilities, the NRO is also developing a decision support tool to 
help satellite operators integrate, visualize, and act upon the 
situational awareness data. The NRO places a high priority on space 
protection, though specific details regarding space protection are 
classified.
    Mr. Rogers. 28) What steps does DOD plan to take, if any, to begin 
working toward disaggregated architectures? For example, are there 
plans to test the applicability of disaggregation at a smaller scale to 
specific mission areas?
    Ms. Sapp. The NRO does not have any plans to begin working towards 
disaggregated architectures, as they do not meet the unique mission 
needs of our NRO systems. The NRO is taking steps to address resiliency 
through ground-based and space-based measures and our partnerships with 
the AF and the IC.
    Mr. Rogers. 29) There are various efforts in the Department, namely 
Air Force, Army, and DARPA, to provide rapid, low-cost launch 
solutions. How do you foresee this type of capability being used by the 
warfighter? In light of increasing foreign threats to our space 
systems, how important is it that we prioritize these efforts?
    Ms. Sapp. The NRO requires reliable, predictable, and affordable 
launch capability, which we address through our partnership with the AF 
on launch capabilities. We address foreign threats to our space systems 
through awareness, protection, diversity and Concepts of Operations 
(CONOPS).
    Mr. Rogers. 30) What is the process to respond to situations where 
our satellites are interfered with or attacked? Are there established 
``red lines'' and responses?
    Ms. Sapp. The NRO continues to refine a process to better respond 
to satellite interference and/or attack, but these activities are 
largely classified. The first element involves determining if the 
anomalous behavior is the result of environmental activity (e.g., solar 
activity or weather-related disruption), system anomaly (component or 
subsystem failures), or counterspace activity. To quickly assess and 
delineate among these factors, the NRO maintains a team of skilled 
satellite operators with reach-back support that continuously monitor 
operations and satellite state-of-health. With respect to counterspace 
activities, in addition to refining established processes, the NRO is 
developing a decision support tool that integrates an array of 
situational awareness and indications and warning sensors that allow 
satellite operators to anticipate and, when necessary, take appropriate 
actions to avoid counterspace activities. In cases where anomalous 
activity is detected, but not anticipated, the decision tool can hasten 
troubleshooting the situation, thereby facilitating operators taking 
appropriate and timely actions. In addition, the NRO has established a 
process and timeline for senior interagency and Congressional 
leadership notification in the event of suspect or confirmed satellite 
interference and/or attack. There are few established or prescribed 
``red lines'' other than those captured in current treaty language, for 
example, not to interfere with national technical means of 
verification. The NRO is engaged with others in the interagency to 
include the IC, the Department of Defense, and the State Department to 
review this and related issues.

    Mr. Rogers. 31) What steps has DOD taken to improve the management 
of requirements in order to reduce program risk?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, we are aware that the 
requirements and acquisition communities are working closely together 
to reduce program risk and incorporate better buying power principles 
wherever possible.
    Mr. Rogers. 32) How can space acquisitions be made affordable 
during years of budget constraints? What needs to change in the 
acquisition paradigm, if anything?
    Mr. Klinger. The USD(AT&L)'s Better Buying Power 2.0 (BBP 2.0) 
Initiative is intended to help mitigate this era of severe budget 
constraints. BBP 2.0 was provided to industry and we have received 
numerous comments from the commercial satellite industry including 
suggestions how the Government might improve the efficiency of 
procurement of commercial satellite systems and services. Subsequently, 
the Department kicked off a review to determine best practices in 
teaming with industry to lower costs of space systems and services.
    An excellent example of improved affordability is the Evolved 
Expendable Launch Vehicle (EELV) program. The FY14PB reduced the EELV 
program budget by almost $1B across the FYDP. This is a direct result 
of improved communication with our current provider to stabilize the 
EELV production rate and supply chain. In addition, the Department has 
taken actions to introduce competition in the EELV program by 
publishing a new entrant certification process, providing opportunities 
for new entrants to launch more risk tolerant payloads prior to 
certification, and establishing early competition opportunities as soon 
as new entrants are certified.
    The Department is continually reviewing our acquisition 
legislative, policy, guidelines, regulatory or contracting actions 
which could be taken to improve the Government satellite procurement 
process along with our acquisition models to ensure space acquisitions 
are as affordable as possible.
    Mr. Rogers. 33) Is there an effort to move toward firm fixed-price 
contracts? Why?
    Mr. Klinger. We continually look for better and more efficient ways 
to acquire the Department's materiel needs. In November 2010, the 
USD(AT&L) issued Better Buying Power (BBP) 1.0 Guidance for obtaining 
greater efficiency and productivity in defense spending, which included 
guidance on increasing the use of Fixed-Price contracts, where 
appropriate. Last November, USD(AT&L) issued BBP 2.0 which builds upon 
this guidance to stress using appropriate contract types while 
encouraging the use of Fixed Price Incentive contracts for early 
production. Through the BBP initiatives, we are striving to incentivize 
productivity and innovation in industry and Government by utilizing the 
appropriate contract type for each phase of an acquisition. Fixed Price 
contracts are generally more suitable for the production phase of 
satellite acquisition since the requirements are firm, the design is 
mature as demonstrated in developmental testing, and manufacturing 
processes with qualified suppliers are in place. The Department follows 
the Congressional direction in section 818 of the John Warner National 
Defense Authorization Act for Fiscal Year 2007, P.L. 109-364, to select 
the contract type for a development program at the time of Milestone B 
approval that is consistent with the level of program risk
    Mr. Rogers. 34) What is the status of the new acquisition strategy 
for the Evolved Expendable Launch Vehicle program? How did the USAF 
determine which satellite payloads to set aside for competition, and 
which programs were part of the ULA block-buy? And, how does the Air 
Force plan to manage this competition to ensure a level playing field?
    Mr. Klinger. USD(AT&L) approved an amendment to the EELV 
Acquisition Strategy on February 10, 2013, authorizing the Air Force to 
order up to 36 rocket cores from United Launch Alliance (ULA) during 
FY13-17 and to leave open for competition up to 14 additional rocket 
cores during the same period. The missions reserved for competition are 
those that (1) meet the performance capabilities (mass to orbit 
injection) of the potential New Entrant's launch vehicles (as stated by 
the vendors) and (2) will be ordered after the estimated certification 
date for the New Entrant's launch vehicles (as stated by the vendors), 
with a single exception where the cost to compete the launch service 
was not in the best interest of the Government. The 36 cores that the 
Air Force is negotiating with ULA are either outside the New Entrant's 
stated lift capability and/or will be ordered before the New Entrant(s) 
expect to achieve certification; e.g., only those launch service orders 
that the New Entrants cannot satisfy are planned for sole-source award 
to the ULA.
    The Air Force is currently developing the detailed plan to compete 
as many of the 14 cores as soon as the FY15 launch service awards. This 
plan will address the factors used to ensure a fair and equitable 
competition. The Air Force plans to obtain USD(AT&L)'s approval of this 
plan late this calendar year. In addition, the Air Force will award 
early integration contracts following a new entrant's first successful 
certification flight to provide insight into launch vehicle to 
satellite compatibility.
    Mr. Rogers. 35) What is the process to assess the risk 
classification of payloads for the Evolved Expendable Launch Vehicle?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, the Air Force is 
responsible for assessing the risk classification of payloads using the 
common set of criteria defined in the ``Coordinated Strategy Among the 
US Air Force, the NRO and NASA for New Entrant Launch Vehicle 
Certification,'' signed on October 12, 2011.
    Mr. Rogers. 36) In GAO's annual report on duplication, overlap, and 
fragmentation, it reported that ``Space launch acquisition processes 
for NASA and DOD are not formally coordinated, duplicate one another, 
and may not fully leverage the Government's investment because the 
Government is not acting as a single buyer.'' Please identify cost-
savings opportunities and identify what is being done to reduce 
duplication and leverage investments.
    Mr. Klinger. The concerns cited in the GAO's report are derived 
from US Space Transportation Policy (NSPD-40), from December 2004, 
which assigns separate responsibilities to the SECDEF and the NASA 
Administrator to purchase launch services for national security 
requirements and civil requirements, respectively. Under ``Assuring 
Access to Space,'' NSPD-40 assigns responsibilities for acquiring 
launch services as follows, ``2) The Secretary of Defense shall be the 
launch agent for the national security sector and shall maintain the 
capability to develop, evolve, operate, and purchase services for those 
space transportation systems, infrastructure, and support activities 
necessary to meet national security requirements.'', ``3) The 
Administrator of the National Aeronautics and Space Administration 
shall be the launch agent for the civil sector and shall maintain the 
capability to develop, evolve, operate, and purchase services for those 
space transportation systems, infrastructure, and support activities 
necessary to meet civil requirements, including the capability to 
conduct human and robotic space flight for exploration, scientific, and 
other civil purposes.''
    Mr. Rogers. 37) What is DOD doing, or planning to do, to define and 
assess its mission assurance costs and activities, and to what extent 
will the strategy protect against overly high launch vehicle prices 
compared with mission assurance changes/efficiencies resulting from 
these assessments? Further please outline how mission assurance for 
national security space missions differs from commercial space
missions.
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, the Air Force is the 
responsible agency for National Security Space Launch and, as such, 
defines the Department's mission assurance process. I do believe our 
Mission Assurance costs, which are on the order of 3-5% of the cost of 
the launch vehicle, are appropriate. In addition, I believe there is a 
fundamental difference between launching a commercial satellite and a 
National Security Space satellite that justifies the Department's 
approach. While a commercial entity can use insurance to offset the 
financial losses associated with a failure to place the satellite in 
the correct orbit, the Department loses the capability that that 
satellite would have provided. These systems take many months or years 
to regenerate, leaving our national and warfighting users without 
capability they were planning to have for their missions.
    Mr. Rogers. 38) How is resilience measured and what are the most 
important steps the U.S. needs to take in order to create space systems 
that are resilient to threats?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, I am aware that the 
intelligence, requirements, and acquisition communities are working 
closely together to address this question.
    Mr. Rogers. 39) Please describe the current efforts and priority 
you are placing on space situational awareness and space protection.
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, assuring required 
space capabilities are available in a contested environment is a top 
priority for the Department. Space situational awareness is the 
foundation for all space operations and the key enabler for protecting 
U.S. interests in space.
    In March 2013, the Department and the Office of the Director of 
National Intelligence jointly established the Space Security and 
Defense Program (SSDP). The SSDP will serve as the center of excellence 
to inform options and strategies (materiel, non-materiel, cross-Title 
10 and 50 United States Code, and cross-domain) to enable a more 
resilient and survivable National Security Space Enterprise. As part 
this effort, the Office of the Director for National Intelligence is 
establishing a Space Threat Assessment Cell to provide long-term threat 
assessment and evaluation support to the SSDP.
    Mr. Rogers. 40) How will the Department decide whether to apply 
disaggregated architecture principles to future space system 
acquisitions? Who will make the final decision whether a disaggregated 
approach is used?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, I am aware that Air 
Force Space Command is reviewing and evaluating disaggregated 
architecture principles for future space systems. There will be senior-
level Department reviews prior to submission to the Deputy Secretary 
for final decision about whether a disaggregated approach is used.
    Mr. Rogers. 41) What steps does DOD plan to take, if any, to begin 
working toward disaggregated architectures? For example, are there 
plans to test the applicability of disaggregation at a smaller scale to 
specific mission areas?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, I am aware that Air 
Force Space Command is reviewing/evaluating disaggregated 
architectures. I expect they will assess disaggregated architecture 
response options as part of the trade space and the need to understand 
performance issues surrounding proposed architectures.
    Mr. Rogers. 42) There are various efforts in the Department, namely 
Air Force, Army, and DARPA, to provide rapid, low-cost launch 
solutions. How do you foresee this type of capability being used by the 
warfighter? In light of increasing foreign threats to our space 
systems, how important is it that we prioritize these efforts?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, I am aware all 
applicable communities are collaborating on this important issue.
    Mr. Rogers. 43) There have been major advances in Overhead 
Persistent Infrared with the launch of the Space-Based Infrared System. 
Are we leveraging this capability to the fullest extent? What 
challenges and opportunities are ahead?
    Mr. Klinger. I agree with the comment General Shelton made during 
the hearing, stating ``we have not even scratched the surface'' in 
exploiting and leveraging the Space-Based Infrared System (SBIRS) to 
its fullest extent. Air Force Space Command, as the command responsible 
for operations and acquisition of the SBIRS system, continues to make 
progress to further leverage the capabilities of the on-orbit 
spacecraft and sensors, in conjunction with NASIC, NGA, and the NRO.
    While it is most appropriate for the Air Force to provide specific 
operational plans, the OPIR community continues working to leverage the 
strengths and expertise of each other's respective organizations to 
effectively operate the OPIR Enterprise to address both existing 
requirements and emerging threats in a cost-conscious and affordable 
way. The ground segment has sought to exploit our OPIR sensors more 
effectively by introducing new processing techniques, fusing data 
streams, and adopting common mission management tools. The ground 
segment has also sought to make both processed and raw data more 
accessible to a wider base of users. We have accomplished much, but 
have more to do in this area.
    Looking forward, many challenges and opportunities exist. The DOD 
and IC will continue to cooperate in the development of new sensors, 
technology, tradecraft, sources, and collaborative strategies while 
improving cost performance and ensuring mission functional 
availability. The objective is an effective and affordable OPIR 
Enterprise that will continue to provide a key strategic advantage for 
dealing with emerging threats and enduring national security challenges 
of the 21st century.
    Mr. Rogers. 44) Are we procuring commercial satellite services in 
the most efficient way, and if not, what opportunities for improvement 
are there? Also, who has sole responsibility for satellite 
communications in the Department?
    Mr. Klinger. In response to the USD(AT&L) announcement of his 
Better Buying Power 2.0 Initiative some members of the commercial 
SATCOM industry provided some suggestions to the DOD on how the DOD 
might improve the efficiency of procuring commercial SATCOM services. 
The Department has kicked off a review to determine any near-term 
legislative, policy, regulatory or contracting actions which could be 
taken to improve the existing Government SATCOM procurement process.
    There is no sole responsibility for satellite communications within 
the Department. USD(AT&L) has responsibility for MILSATCOM acquisition 
programs, DOD CIO has the responsibility for SATCOM policy, and DISA 
has the responsibility for commercial SATCOM contracting.
    Mr. Rogers. 45) What is the process to respond to situations where 
our satellites are interfered with or attacked? Are there established 
``red lines'' and responses?
    Mr. Klinger. As the Deputy Assistant Secretary of Defense for Space 
and Intelligence, I am the primary advisor to the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) on all 
issues associated with the DOD end-to-end Space and Intelligence 
infrastructure. In this role, I am accountable for acquisition 
oversight and acquisition related matters. Therefore, I am not able to 
speak authoritatively on this question. However, we are aware that 
there are currently no established ``red lines'' or responses for the 
attack of an on orbit satellite.
    The Office of the Under Secretary of Defense for Policy published 
the DOD Space Policy, updated in October 2012 and it outlines the 
Department's multilayered approach to deterrence in the space domain. 
The policy also declares that purposeful interference with U.S. space 
systems and other space systems upon which the U.S. relies is 
irresponsible in peacetime and may be escalatory in a crisis.

    Mr. Rogers. 46) How can space acquisitions be made affordable 
during years of budget constraints? What needs to change in the 
acquisition paradigm, if anything?
    Mr. Loverro. The Department has already begun to make great strides 
in reducing the cost of space acquisition. Using the Efficient Space 
Procurement (ESP) authority granted by Congress and by following the 
precepts within the Under Secretary of Defense for Acquisition, 
Technology, and Logistics Better Buying Power initiatives, Air Force 
Space Command (AFSPC) has already made substantial progress in reducing 
the cost of multiple production satellites, notably the most recent 
Wideband Global Service (WGS) satellites, and the Advanced Extremely 
High Frequency (AEHF) satellites. The WGS system as a whole also 
benefits from the international cooperative arrangements that the Air 
Force has negotiated to increase the number of production satellites 
and drive down the cost for all.
    In general, these types of good business strategies can be applied 
across most space acquisitions, and AFSPC is in the process of applying 
these same strategies to the Space-Based Infrared System (SBIRS), the 
Global Positioning System (GPS), and the Evolved Expendable Launch 
Vehicle (EELV) program.
    Still, more can be done. Greater communication and coordination 
with industry in those areas where commercial space has a substantial 
footprint and increased cooperation with allies and partners can both 
continue to drive down space acquisition cost and create more resilient 
space capabilities. To that end, the Department is already working with 
new entrant commercial launch providers, and has entered into multiple 
space situational awareness sharing or cooperative arrangements. We 
have partnered with Taiwan on the COSMIC-2 space weather system, 
effectively cutting the cost of that system by more than two-thirds.
    We need to expand our leveraging of allied space capabilities, 
where operationally suitable. Our allies and partners have significant 
and growing space-based capabilities in a range of mission areas. By 
leveraging their systems, we can augment our capabilities, add 
diversity and resilience to our architectures, and complicate the 
decision-making of potential adversaries all while reducing cost. On 
the commercial side, we need to become more astute buyers of commercial 
satellite communication (SATCOM) services by exploring innovative 
approaches, such as multi-year contract authority or co-investment for 
commercial space services. Additionally, we believe hosted payloads and 
disaggregated architectures have the potential to allow us to take 
advantage of the most competitive sectors of our space market and drive 
down costs further. The Commercially Hosted Infrared Program (CHIRP) 
demonstration showed the advantages of this approach and the AFSPC 
Hosted Payload Indefinite/Indefinite Delivery allows the Department to 
further explore its long term benefits.
    Mr. Rogers. 47) Is there an effort to move toward firm fixed-price 
contracts? Why?
    Mr. Loverro. The specific circumstance of an acquisition is the 
most important determinant of the type of contract to be issued. The 
Department is exploring methods to improve our acquisition processes, 
energize the U.S. industrial base, and enhance technological 
innovation. We are striving to ensure the industrial base is robust, 
competitive, flexible, healthy, and delivers reliable space 
capabilities on time and on budget. The Department follows the 
congressional direction in section 818 of the John Warner National 
Defense Authorization Act for Fiscal Year 2007 (P.L. 109-364) to select 
the contract type for a development program that is consistent with the 
level of program risk at the time of Milestone B approval.
    In some cases, we have found that these goals can be best 
accomplished by expanding the traditional focus from primarily cost-
plus to those that include fixed price arrangements. Such was the case 
for both SBIRS and AEHF where the baseline was firm and production 
processes were mature. Similarly, the Air Force intends to investigate 
whether to buy the next set of GPS III satellites under fixed price, 
and/or to renegotiate several existing cost-plus GPS III satellite 
contracts, if they conclude a sufficient level of maturity has been 
reached on that program and if it is in the program's best interests.
    In general, when baselines are firm, production processes mature, 
Government and contractor oversight processes are settled, and 
technology risk has been eliminated, the move to fixed price 
arrangements can be beneficial for both the contractor and the 
Department. That normally happens as systems enter production. But it 
can also be true for developmental programs if the acquisition was 
structured correctly. Such is the case for the Air Force Space Fence 
program which spent the first 5 years establishing the right conditions 
for a fixed price development, significantly driving down both cost and 
risk in the process.
    Mr. Rogers. 48) In January 2012, the Secretary of State announced a 
decision to initiate formal negotiations with the European Union and 
other space-faring nations to develop an International Code of Conduct 
for Outer Space Activities. What is the status of these activities? 
What are the advantages and disadvantages of negotiating and signing 
onto such a Code? What national security considerations should the 
Department take into account as it reviews such a proposal? How do we 
balance increased cooperation with assured access and freedom of 
action?
    Mr. Loverro. Negotiations for the International Code of Conduct are 
underway. As noted in the DOD Space Policy, the Department is working 
with interagency, international, and commercial partners to define and 
promote safe and responsible space operations. The Department of 
Defense is actively working with the Department of State to conduct 
bilateral and multilateral discussions with allies and other space-
faring nations in support of a non-legally binding International Code 
of Conduct for Outer Space Activities. The congested and contested 
space environment presents challenges for all space-faring nations. 
Efforts such as the proposed Code can help increase awareness, enhance 
spaceflight safety, and prevent mishaps, misperceptions, and mistrust, 
thereby helping to ensure that access to space is preserved for all. 
The proposed Code, drafted as a non-legally binding set of guidelines, 
calls on subscribing states to refrain from activities that create 
long-lived debris and to provide notification of certain space 
activities, including those that might risk creating debris. Space 
debris is a growing concern for all space-faring nations. Additionally, 
the proposed Code reinforces key space norms internationally that the 
U.S. Government has already endorsed but that are not universally 
followed, including pre-launch notifications under the Hague Code of 
Conduct, UN Debris Mitigation Guidelines, and safety of flight 
practices such as sharing collision warning
information.
    Importantly, the proposed Code explicitly recognizes nations' 
inherent right of self-defense. The Code would not constrain either the 
development of the full range of space capabilities, or the ability of 
the United States to conduct necessary operations in crisis or war. As 
the Secretary of State noted in January 2012, the United States would 
not subscribe to a Code that in any way constrains our national 
security-related activities in space or our ability to protect the 
United States and our allies.
    Mr. Rogers. 49) The Department has made recent efforts to engage in 
further collaboration with the international community regarding space 
situational awareness. What policies govern the sharing of data 
associated with space situational awareness? What are the benefits and 
risks of sharing information?
    Mr. Loverro. Title 10 U.S. Code Section 2274, Space Situational 
Awareness (SSA) Services and Information, authorizes the Secretary to 
provide various space situational awareness services and information, 
and to receive space situational awareness data and information. 
Additionally, the 2010 National Space Policy, the 2011 National 
Security Space Strategy, and the 2012 Department of Defense Space 
Policy call for expanding international cooperation and increasing U.S. 
leadership to promote the sustainable and responsible use of space.
    Space Situational Awareness (SSA) is fundamental to all space 
operations, from launch to on-orbit operations to re-entry activities. 
As the National Security Space Strategy states, shared awareness of 
spaceflight activity must improve in order to foster global spaceflight 
safety and help prevent mishaps, misperceptions, and mistrust. 
Effective SSA requires cooperation--we cannot do it alone. U.S. 
Strategic Command has concluded 37 arrangements with commercial owner/
operators and two arrangements with foreign governments. The Department 
continues to negotiate additional SSA sharing agreements with both 
commercial and international operators, and to explore the joint 
development and operation of SSA sensors with allies and partners.
    Sharing SSA data, services, and information with Government, intra-
governmental, and commercial satellite owner/operators helps to improve 
spaceflight safety by improving space object databases, establishing 
common international data standards and data integrity measures, 
disseminating predictions of space object conjunctions and close 
approaches, and supporting other measures to preserve the space
environment.
    Mr. Rogers. 50) How is resilience measured and what are the most 
important steps the U.S. needs to take in order to create space systems 
that are resilient to threats?
    Mr. Loverro. Resilience is measured in both qualitative and 
quantitative terms. Qualitatively, the Department of Defense defines 
resilience for space as the ability of an architecture to support the 
functions necessary for mission success in spite of hostile action or 
adverse conditions. An architecture is ``more resilient'' if it can 
provide these functions with higher probability, with shorter periods 
of reduced capability, and across a wider range of scenarios, 
conditions and threats.
    As this definition is less than two years old, DOD organizations 
have now begun to refine ways to conduct quantitative analysis of the 
resilience of space systems during the budget review and space analysis 
of alternatives (AOA) processes. These quantitative measurements will, 
necessarily, be different for different space mission areas, space 
systems, and other aspects of the space enterprise.
    As we look to the future, resilience will be achieved by pursuing a 
multifaceted approach across all space systems. These will include 
further incorporating and encouraging a more competitive U.S. 
commercial space service industry, integrating space capabilities from 
allied and partner nations, pursuing a more disaggregated model for 
many system architectures including less complex systems and hosted 
payloads, and investigating the role of reconstitution.
    Resilience may not be solely an internal architecture 
characteristic. Some alternative orbitology or basing modes may make it 
easier for external space surveillance awareness sensors to provide 
warning of impending attack and time for potential defensive actions to 
be taken.
    Mr. Rogers. 51) Please describe the current efforts and priority 
you are placing on space situational awareness and space protection.
    Mr. Loverro. Space Situational Awareness (SSA) is fundamental to 
all space operations and underpins DOD's space strategy. To protect our 
high-valued space assets from both unintentional damage as well as 
hostile interference, we must maintain an awareness of the space 
environment--one that is increasingly becoming more congested, 
contested, and competitive. U.S. Strategic Command is establishing SSA 
sharing arrangements with commercial and international satellite owner/
operators to enhance safety of flight. As the National Security Space 
Strategy notes, shared awareness of spaceflight activity must improve 
in order to foster global spaceflight safety, as well as to help 
prevent mishaps, misperceptions, and mistrust.
    Additionally, we have made significant progress in pursuing 
elements of our future SSA architecture. The Space-Based Space 
Surveillance System (SBSS) became operational last year and the Defense 
Advanced Research Projects Agency (DARPA) is successfully testing its 
space surveillance telescope (SST). We have concluded negotiations with 
Australia to move a C-band SSA radar to that nation, and with the help 
of Congress, that effort is now underway. We are pursuing a similar 
arrangement with DARPA's SST. And the Department has made a substantial 
investment in the Space Fence system and is preparing to award a full 
development contract in FY 13.
    We also continue to increase our focus on protection. To that end, 
in March of this year, we established the Space Security and Defense 
Program, which will pursue studies aimed at providing space protection 
capabilities for all U.S. space forces. We have placed increased 
emphasis on this program through the President's budget submission for 
fiscal year 2014. We have ongoing investments in the Global Positioning 
System (GPS) modernization efforts to emplace a far more secure and jam 
resistant space and user equipment M-code system and also increase the 
cyber security of the GPS control segment. We are also beginning 
efforts in other areas, such as the Wideband Global System to enhance 
jam resistance. Finally, we have made substantial strides in defining 
and fielding an advanced command and control system through the Joint 
Space Operations Center (JSpOC) Mission Systems (JMS) program to help 
us better understand and warn of possible threats to our systems.
    Mr. Rogers. 52) There are various efforts in the Department, namely 
Air Force, Army, and DARPA, to provide rapid, low-cost launch 
solutions. How do you foresee this type of capability being used by the 
warfighter? In light of increasing foreign threats to our space 
systems, how important is it that we prioritize these efforts?
    Mr. Loverro. Timely, low-cost launch capability might be one part 
of a capability to allow reconstitution of a space-based capability 
should it be degraded by attack or mishap. The role of reconstitution 
in a resilient architecture is still being investigated and the efforts 
by the Air Force, Army, and DARPA help serve to provide the data 
through demonstration that would allow those architectural trades to be 
made.
    For example, the U.S. Army Space and Missile Defense Command's 
(SMDC) Soldier-Warfighter Operationally Responsive Deployer for Space 
(SWORDS) is an effort to develop a relatively low-cost nanosatellite 
launch system for the U.S. Army. The Department approved SWORDS as a 
2012 Joint Capability Technology Demonstration (JCTD).
    Additionally, DARPA's Airborne Launch Assist Space Access (ALASA) 
system is designed for launch from an aircraft to improve performance, 
reduce range costs, and enable more frequent missions. ALASA completed 
initial trade studies and a market/business case analysis in fiscal 
year 2011, and has entered into a Design Risk Reduction phase.
    At this point, it is too early to commit to responsive launch as a 
high priority until those demonstration and trades are complete.
    Mr. Rogers. 53) Are we procuring commercial satellite services in 
the most efficient way, and if not, what opportunities for improvement 
are there? Also, who has sole responsibility for satellite 
communications in the Department?
    Mr. Loverro. We are not procuring commercial satellite 
communications (SATCOM) services in the most efficient manner. The 
commercial business model looks for a return of initial investment 
within 3-5 years. As such, the cost of a commercial SATCOM lease must 
include all the amortization to achieve that return for the service 
provider. While longer-term leases lower the bill they can only reduce 
the cost of business risk encompassed in a one-year lease (about 10 
percent), but they still bear the huge expense of investment 
recoupment. In order to do better, the Department should begin to 
explore innovative partnerships with industry that involve a DOD 
capital investment and shared access across a global footprint. This 
approach has the potential for far greater savings while significantly 
enhancing both DOD resilience and long term commercial stability.
    Although historically there has been no component with sole 
responsibility for satellite communications within the Department, the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD/AT&L) has responsibility for military SATCOM (MILSATCOM) 
acquisition programs; the DOD Chief Information Officer (DOD/CIO) has 
the responsibility for SATCOM policy; and the Defense Information 
Systems Agency (DISA) has the responsibility for commercial SATCOM 
contracting. DOD's current efforts to examine how the Department 
procures SATCOM includes addressing this issue. DOD/CIO, for example, 
has recently initiated a SATCOM governance construct, and SATCOM 
coordination occurs as part of the actions of the Defense Space 
Council. In addition, USD/AT&L and DOD/CIO have jointly launched a 
Commercial Satellite Study to examine ways to better leverage, 
integrate, and acquire commercial satellite (COMSATCOM) services.
    Mr. Rogers. 54) What is the process to respond to situations where 
our satellites are interfered with or attacked? Are there established 
``red lines'' and responses?
    Mr. Loverro. There are currently no established ``red lines'' or 
responses for the attack of an on-orbit satellite. The DOD Space 
Policy, updated in October 2012, outlines the Department's multilayered 
approach to deterrence in the space domain. The policy also declares 
that purposeful interference with U.S. space systems and other space 
systems upon which the United States relies is irresponsible in 
peacetime and may be escalatory in a crisis
    Mr. Rogers. 55) Please describe the urgent warfighter requirement 
that led DISA to procure satellite services from the Chinese company. 
When you testified, you stated that this was done in response to a 
JUON. Is this still your best understanding of the facts?
    Mr. Loverro. Beginning in mid-2012, U.S. Africa Command (USAFRICOM) 
required wider geographic coverage using a single satellite to cover 
the entire African continent. This bandwidth is to support 
intelligence, surveillance, and reconnaissance (ISR) operations in the 
eastern, central, and southern portions of the continent. These 
operations range from counter-piracy to counter-Lord's Resistance Army 
(LRA), plus a host of other operations. The bandwidth also supports 
coalition networks enabling time-sensitive information sharing with 
African partner nations that help support counter-Violent Extremist 
Operations and the USAFRICOM Theater Campaign Plan.
    With regards to whether this was a Joint Urgent Operational Need 
(JUON), while I indicated during testimony that we were leasing some 
satellite services from a Chinese company to support a JUON, as we 
continued to analyze the situation, I learned that USAFRICOM's need, 
although operationally critical and requiring expedited service, was 
not in fact a JUON.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. 56) As the Air Force and, to some extent, the 
National Reconnaissance Office currently fund infrastructure and other 
facility support costs for the incumbent provider, in order to help the 
committee understand the current arrangement of the contract with the 
incumbent, can you describe why a cost-plus vehicle is in place, given 
the maturity of the program?
    General Shelton. The Phase 1 Evolved Expendable Launch Vehicle 
(EELV) Launch Capability (ELC) efforts will continue under the Cost 
Plus Incentive Fee (CPIF) construct. The EELV program requires 
operational flexibility to meet its National Security Space (NSS) 
mission. ELC provides the program flexibility to manage changes to 
mission requirements without Request for Equitable Adjustments (REAs) 
or schedule penalties (e.g., launch slips due to satellite vehicle 
acquisition issues, first time integration delays or anomaly resolution 
from a previous mission). The Air Force is examining options to 
restructure ELC to allocate appropriately the discrete and unambiguous 
costs to the launch vehicle and each individual payload customer. The 
plan is to incorporate these adjustments into the Phase 1 contract and 
consider them for future acquisition phases of the program.
    Mr. Langevin. 57) In last year's hearing, General Shelton, in a 
response to a question for the record, you stated that you plan to meet 
warfighter needs for responsive space capabilities through programs of 
record and mechanisms such as the Joint Urgent Operational Needs 
process. Given that ORS is intended to foster low-cost launch methods, 
as well as common design and interfacing methods, and that ORS is 
zeroed out in the FY14 budget, I'm curious as to how you propose to 
address the problem of space responsiveness through existing 
procurement programs and a variety of initiatives that, according to 
the GAO, have not been planned for in a very robust or strategic 
manner.
    General Shelton. The Department of Defense (DOD) understands the 
importance of the Operationally Responsive Space (ORS) concept and 
recognizes the progress made under the ORS Office. In accordance with 
the FY13 NDAA, the transition of the ORS Office to the Space and 
Missile Systems Center (SMC) will be formalized in June 2013. DOD is 
currently incorporating ORS lessons learned and responsive processes 
into SMC processes and programs to ensure it continues to develop 
responsive and affordable space capabilities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. 58) The U.S. Air Force announced late last year that 
certified New Entrants would be allowed to compete along with ULA for 
up to 14 rocket cores through FY17. Given that the incumbent provider 
currently receives over $1.2B annually in cost-plus payments under the 
Launch Capability contract line, how does the Air Force intend to 
ensure that the competition will occur on a level playing field when 
the incumbent competes against New Entrants? What specific actions will 
the Air Force take to ensure that the incumbent properly allocates ELC 
payments in a competition against New Entrants? Will ULA be allowed to 
bid only a launch service price (marginal price) when it competes 
against a New Entrant's full price, since the Government is paying for 
ULA's fixed costs?
    General Shelton. We have not yet determined the specific methods to 
address Evolved Expendable Launch Vehicle (EELV) Launch Capability 
(ELC) costs in the New Entrant competitions. However, they will be 
addressed in the Source Selection Plan. The details of the competition 
are currently being developed and will ensure the best value for the 
Government among all certified providers and will be conducted in 
accordance with Defense Federal Acquisition Regulations.
    Mr. Garamendi. 59) Given that the Air Force and, to some extent, 
the National Reconnaissance Office currently fund infrastructure and 
other facility support costs for the incumbent provider, can you help 
us understand why the funding of fixed costs requires a cost-plus 
contract? What infrastructure requirements are unknown at this time?
    General Shelton. The Phase 1 Evolved Expendable Launch Vehicle 
(EELV) Launch Capability (ELC) efforts will continue under the Cost 
Plus Incentive Fee (CPIF) construct. The EELV program requires 
operational flexibility to meet its National Security Space (NSS) 
mission. ELC provides the program flexibility to manage changes to 
mission requirements without Request for Equitable Adjustments (REAs) 
or schedule penalties (e.g., launch slips due to satellite vehicle 
acquisition issues, first time integration delays or anomaly resolution 
from a previous mission). The Air Force is examining options to 
restructure ELC to allocate appropriately the discrete and unambiguous 
costs to the launch vehicle and each individual payload customer. The 
plan is to incorporate these adjustments into the Phase 1 contract and 
consider them for future acquisition phases of the program. Range 
requirements are considered to be sufficiently mature for a fixed-price 
contract and, as a result, the Government is in source selection now to 
select a range provider on a fixed-price incentive fee vehicle.
    Mr. Garamendi. 60) Space launch procurement is the single largest 
line item in the Air Force space budget. The Government Accountability 
Office (GAO) has repeatedly argued that the Air Force can generate 
significant savings by reintroducing competition into its space launch 
procurement program. What savings do you
envision in the Evolved Expendable Launch Vehicle program associated 
with
competition?
    General Shelton. Based on the Office of the Secretary of Defense 
Cost Assessment and Program Evaluation (OSD CAPE) independent cost 
estimate (ICE), implementation of the Air Force Evolved Expendable 
Launch Vehicle acquisition strategy in FY13 is projected to save $1.1B 
over the Future Years Defense Program as compared to the FY12 budget 
assumptions from FY13-18. These savings were factored into the FY14 Air 
Force budget submission.
    Mr. Garamendi. 61) The Launch Capability cost-plus contract 
structure was instituted in 2006 as a measure to achieve ``assured 
access'' for the Government by maintaining the industrial base capacity 
of the only remaining domestic company capable of conducting space 
launch. Air Force has now recognized the existence of multiple new 
providers. Once these New Entrants are certified and competing for all 
launches in the program, does the DOD have a plan to phase out the ELC 
cost-plus contract?
    General Shelton. The specific method in which the current incumbent 
Evolved Expendable Launch Vehicle (EELV) Launch Capability (ELC) and 
EELV Launch Services (ELS) costs will be competed with new entrants has 
yet to be determined, but will be addressed in the Source Selection 
Plan. The details of the competition are being developed and will 
ensure the best value for the Government among all certified providers 
and will be conducted in accordance with Federal Acquisition 
Regulations.
    Mr. Garamendi. 62) I would like more information on space-based 
infrared systems. What is its capability and purpose?
    General Shelton. Space Based Infrared System (SBIRS) is an 
infrared-sensing satellite that supports four missions: Missile Warning 
(MW), Missile Defense (MD), Battlespace Awareness (BA), and Technical 
Intelligence (TI).
    Missile Warning: SBIRS provides reliable, unambiguous, timely, and 
accurate MW information to the Missile Warning Center (MWC), North 
American Aerospace Defense Command (NORAD), National Command Authority 
(NCA), Combatant Commanders, and allies. This mission includes both 
global and theater functional requirements to support strategic and 
theater ballistic MW, and the notification and implementation of 
passive defense and force posturing.
    Missile Defense: SBIRS supports MD by providing missile event 
queuing to the Missile Defense Agency (MDA) systems. The MD mission 
includes both national and theater functional requirements to support 
active MD and attack operations against hostile forces.
    Battlespace Awareness: SBIRS provides non-missile threat warning 
data, in support of Battlespace Awareness for battle damage assessment 
and intelligence information for land, sea, air, and space decision 
support to Combatant Commanders, Joint Task Force Commanders, and other 
users.
    Technical Intelligence: SBIRS supports the National Geospatial 
Agency (NGA) TI mission by providing threat performance and infrared 
(IR) target signature data to warfighters and weapons developers; 
provides target classification and identification profiles and 
algorithms to support SBIRS operational missions; and monitors and 
provides policymakers and other users' information on observed military 
tactics, new foreign technology development, arms control compliance, 
and proliferation
activities.

    Mr. Garamendi. 63) Given that the Air Force and, to some extent, 
the National Reconnaissance Office currently fund infrastructure and 
other facility support costs for the incumbent provider, can you help 
us understand why the funding of fixed costs requires a cost-plus 
contract? What infrastructure requirements are unknown at this time?
    Ms. Sapp. The AF is currently negotiating the Launch Capability 
contract with the incumbent provider, and would be better suited to 
respond with specific details of the contract structure.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. 64) DOD is currently evaluating options to move us 
away from the Defense Meteorological Satellite Program. Can you share 
with us the status of this ``architecture study''? When can members of 
the committee expect a final decision on the way forward?
    Mr. Loverro. A comprehensive Analysis of Alternatives for a 
replacement capability for the Defense Meteorological Satellite Program 
(DMSP) is currently ongoing as part of a study on DOD's Space-Based 
Environmental Monitoring (SBEM) capabilities. The first phase of the 
study included an analysis of military utility and effectiveness, and 
was completed in March 2013. The current Analysis of Alternatives work, 
which is scheduled to be completed at the end of June 2013, will help 
guide the Department's strategy at the end-of-life of DMSP. The study's 
final report is expected to be completed by August 2013.
    Mr. Bridenstine. 65) The Department has implemented an interesting 
capacity-sharing process for the Wideband Global SATCOM constellation. 
I think that signing Memorandums of Understanding with partner nations 
is a ``win-win'' for the U.S. and these countries. Can you talk about 
the cost savings associated with the MOU-model of satellite operation? 
Do you intend to use this model for other national security space 
systems?
    Mr. Loverro. The Department's partnership with six countries on 
Wideband Global SATCOM (WGS) has expanded the WGS constellation size 
and capacity, contributing to interoperability between participating 
nations, improving the ability of the United States and partner nations 
to perform space-enabled missions, and increasing the inherent 
resilience of this system. In November 2007, we signed a memorandum of 
understanding (MOU) with Australia, resulting in the purchase of the 
sixth WGS satellite. In January 2012, a second MOU, signed with Canada, 
Denmark, Luxembourg, the Netherlands, and New Zealand, resulted in the 
purchase of an additional 10th satellite. Together with our six 
international partners, we have invested $10 billion in this system, 
expanding capability at minimal cost to the U.S. Air Force. The WGS 
agreements leverage $1.3 billion in partner funds while providing over 
40 percent more capacity for U.S. warfighters.
    We believe this model is one of many possible partnering models to 
help reduce system cost while increasing resilience. Different but 
similar arrangements have been negotiated with the government of 
Australia to emplace a C-band Space Surveillance Radar there with part 
of the cost borne by the United States and part by Australia. We also 
envision a joint operating model for that system. We hope to extend 
that model with the conclusion of an MOU on DARPA's space surveillance 
telescope. We anticipate additional opportunities in the position, 
navigation, and timing mission areas, as well as commercial remote 
sensing. While these will differ in character to the WGS MOU, they seek 
the same goal of enhancing U.S. and allied capabilities at reduced 
cost, and with increased resilience, by appropriately sharing space 
capabilities. We are also interested in exploring if this model can be 
extended to the commercial world, especially in the SATCOM arena as 
opposed to the expensive short-term lease arrangement we now use.

                                  <all>

</pre></body></html>
